<html>
<title> - COMMERCE, JUSTICE, SCIENCE, AND RELATED AGENCIES APPROPRIATIONS FOR FISCAL YEAR 2018</title>
<body><pre>[Senate Hearing 115-]
[From the U.S. Government Publishing Office]


 
  COMMERCE, JUSTICE, SCIENCE, AND RELATED AGENCIES APPROPRIATIONS FOR 
                            FISCAL YEAR 2018

                              ----------                              


                         TUESDAY, APRIL 4, 2017

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.

    The subcommittee met at 2:36 p.m. in room SD-192, Dirksen 
Senate Office Building, Hon. Richard Shelby (chairman) 
presiding.
    Present: Senators Shelby, Boozman, Kennedy, Shaheen, 
Schatz, and Van Hollen.

  NATIONAL WATER HAZARDS & VULNERABILITIES: IMPROVED FORECASTING FOR 
                         RESPONSE & MITIGATION

STATEMENTS OF:
        DR. LOUIS W. UCCELLINI, NOAA ASSISTANT ADMINISTRATOR FOR 
            WEATHER SERVICES, AND DIRECTOR OF THE NATIONAL WEATHER 
            SERVICE
        DR. ANTONIO J. BUSALACCHI, JR., PRESIDENT OF THE UNIVERSITY 
            CORPORATION FOR ATMOSPHERIC RESEARCH (UCAR)
        MARY GLACKIN, HEAD OF SCIENCE & FORECAST OPERATION, SENIOR VICE 
            PRESIDENT FOR PUBLIC-PRIVATE PARTNERSHIPS FOR THE WEATHER 
            COMPANY, AN IBM BUSINESS
        BRYAN KOON, DIRECTOR OF THE FLORIDA DIVISION OF EMERGENCY 
            MANAGEMENT, AND FORMER PRESIDENT OF THE NATIONAL EMERGENCY 
            MANAGEMENT ASSOCIATION (NEMA)


             opening statement of senator richard c. shelby


    Senator Shelby. Good afternoon. We are a little late 
because we had votes on the floors. You were probably told.
    Welcome to our first Commerce, Justice, and Science 
Subcommittee hearing of 2017. I want to begin by recognizing 
the subcommittee's new Ranking Member, Senator Shaheen of New 
Hampshire, who I believe will be a good partner in 
accomplishing the subcommittee's work moving forward.
    I also want to thank our panel of witnesses for agreeing to 
be here today to testify about the important issue of water 
related hazards. Severe flooding, extended droughts, and 
dangerous storm surges, among others, threaten communities 
across our Nation. In 2015 and 2016, property damage caused by 
the flooding alone resulted in 105 deaths and an estimated 
$20.6 billion in losses. Over the same period, losses due to 
drought amounted to $8.1 billion.
    Improving our ability to predict and forecast these events 
will help save lives and protect property by allowing emergency 
managers to better prepare and to respond to extreme weather 
incidents. Collecting water-related data and distributing it in 
a useable form is an invaluable task--one that takes a 
collective effort by the Federal Government, States, and the 
private sector. Cutting-edge research is needed to advance our 
current prediction and modeling capabilities.
    One example of a recent advancement spurred by university 
research is the unveiling of the National Water Model, which is 
a predictive tool that stimulates water flow across the 
continental United States. The National Water Model is a 
product of collaboration between Federal agencies and 
universities to solve a complex problem: tracking water flow 
across the country to aid local communities and emergency 
managers in responding to water-related threats.
    Our Nation's water forecasting capability is headquartered 
at the National Water Center. This unique Center serves the 
entire Nation by bringing together Federal agency officials, 
university researchers, and other interested parties to 
research, to track, and forecast water-related events across 
the country.
    This hearing today will examine the current activities 
being conducted by the Federal Government, States, 
universities, and other private sectors in the area of water 
hazard forecasting and mitigation.
    I hope the panel will not only inform this subcommittee 
about the work being done, but also speak to the areas in need 
of improvement, the gaps that need to be filled, and any 
unnecessary overlap between the public and private sector 
activities that could be streamlined.
    Before I recognize the ranking member, I would like to 
briefly introduce the panel. I hope I get the names right. Dr. 
Uccellini--how you say it?
    Dr. Uccellini. Uccellini.
    Senator Shelby. Sir.
    Dr. Uccellini. Uccellini.
    Senator Shelby. Okay. Director of the National Weather 
Service at the Department of Commerce, and he can speak about 
specific activities of the Federal Government in water 
prediction.
    And our next witness will be Dr. Busalacchi. He is the 
President of the University Corporation for Atmospheric 
Research, a consortium of universities focused on better 
understanding of naturally occurring water-related events.
    And then we have Mary Glackin, Senior Vice President of the 
Weather Company for Public-Private Partnerships. She will speak 
to the important work being done by the private sector in 
partnership with the Government agencies.
    And finally, Bryan Koon is the Director of the Florida 
Division of Emergency Management, which comes--he comes with an 
extensive background in national emergency management 
experience, including serving during the Clinton and Bush 
administrations in the President's Emergency Operations Center. 
Bryan also has experience in the private sector serving as 
director of Emergency Management for Wal-Mart Stores, and is a 
former President of the National Emergency Managers 
Association.
    I welcome all of you and I will now recognize Senator 
Shaheen.


                  statement of senator jeanne shaheen


    Senator Shaheen. Well, thank you very much, Mr. Chairman. I 
am very excited to be serving as Ranking Member of the 
Commerce, Justice, and Science Subcommittee and look forward to 
a very productive working relationship.
    I also want to welcome all of our witnesses today. Thank 
you for being here.
    As the Chairman said, this hearing is really about our 
local communities and how they can prepare for and respond to 
water hazards, whether there is too much, not enough, or the 
wrong kind. Coastal communities make up less than 20 percent of 
the U.S. land mass, but they house more than 40 percent of our 
population. One hundred and forty million Americans work in 
coastal counties, including 190,000 New Hampshire residents, 
and that is a lot for a State that only has 18 miles of 
coastline. Those communities contribute $22 billion to New 
Hampshire's economy.
    It is not just our coastlines that depend on NOAA's water 
resources. Non-coastal communities are seeing record-breaking 
floods, droughts, and wildfires. We need to be able to forecast 
the weather, but we also need to know how the weather interacts 
with State and local needs. How does flooding impact oyster 
harvesting in New Hampshire? How does a drought affect salmon 
management in California? How will rising sea levels affect 
flood plains in the Gulf? And how can communities all around 
the United States protect their property, their livelihoods, 
and their water supplies from the impacts of severe weather?
    I am glad, Dr. Uccellini, that you are here to talk about 
the National Weather Service, but I also hope that you will be 
able to talk about the important work that NOAA is doing in 
other line offices. NOAA's research scientists are working to 
improve hurricane and flood forecasting. NOAA's satellites are 
providing 90 percent of the data that goes into weather models. 
And NOAA's ocean service is working with emergency managers to 
make sure local communities are prepared for storms.
    The Administration has proposed significant cuts to NOAA's 
research and data lines. I hope that all of our witnesses will 
help us understand what impacts those cuts could have on our 
weather forecasts and on our communities' capacity to prepare 
for and respond to weather and water hazards. There are so many 
organizations in New Hampshire that are doing great work to 
promote and protect our coastal economies, and I will not go 
through those. But I am very concerned about the impact that 
the proposed cuts would have on coastal communities in New 
Hampshire and across the country.
    Dr. Busalacchi, I know that you are closely tied to the 
academic weather community, and I am interested to hear what 
progress your researchers are making in understanding weather 
and water patterns and how the academic community can 
contribute to the National Weather Service and the National 
Water Center's important work.
    Ms. Glackin, I am interested to hear how the private sector 
is using NOAA's resources. I hope you can let us know how the 
industry's role in weather and water prediction is important 
and also help us understand what functions should stay in the 
government.
    And, Mr. Koon, I look forward to learning more about what 
our emergency and community managers need from NOAA. NOAA made 
a major push under the last Administration to make its data 
more accessible and to help communities plan, prepare for, and 
mitigate the impacts of natural water hazards. I look forward 
to your assessment of whether this has been helpful and what 
more we can do to make a difference.
    So thank you all very much for testifying, and I look 
forward to learning more about the work that you are doing.
    Thank you, Mr. Chairman.
    Senator Shelby. Thank you.
    We have four witnesses before us today: Dr. Louis 
Uccellini, Uccellini, I got it. Okay. Director of the National 
Weather Service; Dr. Antonio Busalacchi, okay, Busalacchi; Mary 
Glackin, Senior Vice President for The Weather Company, I 
mentioned them earlier; and Bryan Koon.
    We will start with you, Doctor.
STATEMENT OF DR. LOUIS W. UCCELLINI, NOAA ASSISTANT 
            ADMINISTRATOR FOR WEATHER SERVICES, AND 
            DIRECTOR OF THE NATIONAL WEATHER SERVICE
    Dr. Uccellini. Well, good afternoon, Chairman Shelby, 
Ranking Member Shaheen, and Members of the subcommittee.
    Senator Shelby. You have to bring the microphone in front 
of you.
    Dr. Uccellini. Okay. And members of the subcommittee. I am 
honored to be here today to discuss the critical matter facing 
our Nation and our national security, and that is water. It is 
either too much, too little, or of bad quality.
    The Chairman's leadership and vision and this 
subcommittee's strong support for NOAA has been and will 
continue to be a crucial matter for us, particularly for this 
ongoing effort to improve water prediction. I thank the 
subcommittee for providing the support necessary to begin 
building a weather ready nation, an initiative that is already 
demonstrating remarkable results at the Federal, State, local, 
and Tribal levels.
    Recent examples of severe weather and fire weather in the 
south central United States and heavy rains and floods in North 
Carolina, South Carolina, Louisiana, and along the West Coast 
provide successful examples where weather and water decision 
support services provided to the public and government 
officials have saved lives.
    We also recognize that improvements are still required to 
ensure all communities are ready and responsive to the onset of 
extreme weather and water events. We are poised to work with 
our partners in the research and private sectors and public 
officials throughout the United States to build a weather and 
water ready nation where everyone is able to take appropriate 
action to be ready and responsive to impending extreme water 
events.
    Last year NOAA sponsored a series of water-based 
discussions with stakeholders, partners, and customers across 
the United States. Participants highlighted the need for 
consistent data, analysis, and improved water predictions. They 
also emphasized the importance of NOAA's work to provide 
timely, actionable water analysis and prediction right down to 
the street level. Finally, State level water planners and 
resource managers called for improving the accuracy of seasonal 
prediction of rainfall and related drought conditions.
    NOAA has made significant progress to address these water 
risks with the establishment of the National Water Center in 
Tuscaloosa, Alabama. This world-class facility is a catalyst 
for enhanced partnerships, accelerating our capacity to bring 
new science to operations and revolutionizing NOAA's water 
prediction capabilities. These capabilities leverage the full 
range of NOAA's water science and services from improved 
seasonal predictions championed by NOAA's Office of Atmospheric 
Research to improve coastal water predictions provided by the 
National Ocean Service.
    The National Water Center has recently implemented a new 
National Water Model. Deploying in August 2016, this 
operational model emerged from a successful community modeling 
framework led by the National Center for Atmospheric Research. 
The National Water Model is based on state of the art 
hydrologic sciences and leverages, the investments in the 
Nation's research community, NOAA's full suite of atmospheric 
weather models, stream gauge data from the U.S. Geological 
Survey, and critical observations and other informations 
provided by many States.
    The National Water Model produces water forecasts for 2.7 
million rivers and streams nationwide representing a 700-fold 
increase in a spatial density of NOAA's weather forecast. With 
this new capability and the new operations capabilities within 
the National Water Center, we are working to provide flood 
inundation maps in real-time. These maps communicate when, 
where and how deep floodwaters will be, and how fast it flows. 
This new model provides an unprecedented level of detail that 
FEMA, State, and local emergency managers have demanded for 
decades, allowing them to take action neighborhood by 
neighborhood, street by street, to save lives and property.
    In addition, when coupled with coastal models operated by 
NOAA's National Ocean Service, the National Water Model will 
provide improved forecasts for over 120 million Americans 
living in the coastal zone. NOAA's key Federal partners in 
water resources, including USGS, the U.S. Army Corp of 
Engineers, and the U.S. Bureau of Reclamation as well as 
partners in State organizations worked with us to provide 
critical data and to guide requirements for NOAA's services. 
NOAA partners with the research and private sectors and uses 
Federal and State-based water observations to generate 
comprehensive water predictions delivered to the entire Nation. 
As such, the data provided by these partners are as important 
to us as are the services we provide to them.
    In closing, water risks stemming from increasing demand, 
limited supply, extreme floods and droughts, and water quality 
require more comprehensive solutions. The new National Water 
Center established that NOAA serves as an important necessary 
catalyst for the ongoing transformational advancement in water 
prediction to serve the Nation's need. With the National Water 
Center in place, NOAA is fostering strategic partnerships with 
Federal agencies, State organizations, Tribal nations, the 
academic community, and the growing vibrant weather and water 
industry to help the public and decisionmakers prepare for and 
mitigate water risk as well as more effectively manage and 
protect our Nation's water resources.
    Thank you.
    [The statement follows:]
              Prepared Statement of Dr. Louis W. Uccellini
                              introduction
    Good morning Chairman Shelby, Ranking Member Shaheen, and members 
of the subcommittee, I am honored to be here today to discuss a 
critical matter of global and national security: water risks. My 
testimony will describe how we at the National Weather Service (NWS), 
and across all of the National Oceanic and Atmospheric Administration 
(NOAA), are working with our partners, including Federal, State, local, 
and Tribal officials, the academic community, and the private sector, 
to improve water prediction and to better inform critical decisions to 
address those water risks.
    Water presents three risks to communities across the United States. 
Stated simply the risks are summed up as follows: too much water, too 
little water, and poor-quality water.
    This threat of water risks arises from several factors, including 
the water-related threats driven by weather events and seasonal 
variability that impact water availability and quality across the 
Nation. As I often say, ``You can't talk weather without thinking 
water.'' These water risks vary regionally and include an increased 
frequency and intensity of heavy downpours leading to flooding, 
increased frequency and intensity of coastal storm surge, impacts on 
water quality resulting from changes in temperature patterns and 
nutrients and pollutants in runoff, as well as longer, more punishing 
periods of drought, often broken by extensive flooding, as just 
happened this past winter in the Western United States. I will address 
each of these risks to provide an integrated picture of these growing 
challenges, and how NOAA is using advances in the science and 
technology of water prediction to better understand and address those 
threats.
    In particular, I will emphasize the progress we have made with the 
establishment of the National Water Center in Tuscaloosa, Alabama. This 
facility is intended to be a catalyst for enhanced collaboration with 
Federal, academic, and private sector partners, which can accelerate 
our capacity to bring cutting edge science to NWS operations and 
improve NOAA's water prediction capabilities. These new capabilities 
rely not just on a single model or tool, but on exploiting and 
advancing the full range of water science, research, and services NOAA 
and our Federal and non-Federal partners have to offer. The Chairman's 
leadership and this subcommittee's strong support in this area has been 
appreciated.
    A central activity of the NWC is the development and implementation 
of NOAA's new community-based National Water Model released in August 
2016.\1\ This new, continental-scale water resources model is based on 
the best available science, and leverages investments in NOAA's full 
suite of atmospheric weather models to produce water forecasts--
including streamflow,\2\ water level, runoff, flood inundation, 
snowpack, soil moisture, and evapotranspiration--for 2.7 million rivers 
and stream reaches nationwide. The National Water Model emerged from a 
community modeling framework developed by the National Center for 
Atmospheric Research (NCAR). Augmenting NOAA's river forecasts at 4,000 
stream gauges maintained by the U.S. Geological Survey (USGS), the 
National Water Model represents a 700-fold increase in the spatial 
density of the Nation's water forecast information. With this new level 
of detailed forecast information, NOAA is working with Federal partners 
to effectively communicate when, where, and how deep floodwaters will 
be during a storm event.
---------------------------------------------------------------------------
    \1\ http://water.noaa.gov/about/nwm.
    \2\ Streamflow refers to the volume of water flowing in a channel 
over time, measured in the United States in cubic feet per second 
(cfs).
---------------------------------------------------------------------------
    A second hydrologic forecasting capability is being implemented 
with support provided by the scientific community and individual 
States. The Hydrologic Ensemble Forecasting Service (HEFS) is an 
operational system that provides forecasts for risk-based water 
resources decision-making. This information seamlessly spans hours to 
days to seasons, and out through the full water-year. By leveraging 
this new information, water resource managers can make more informed 
decisions to optimize both the use of our increasingly limited water 
resources and response to emergency events. For example, the New York 
City Department of Environmental Protection (NYCDEP) worked with NOAA 
to accelerate the implementation of HEFS forecasts to aid the 
optimization of water management decision-making. Using this new water 
forecast information in conjunction with other tools, NYCDEP can 
determine how best to manage its reservoirs.
    Moreover, I will show how our key Federal partners such as the 
USGS, the U.S. Army Corps of Engineers (USACE) and the U.S. Bureau of 
Reclamation (USBoR), work with us hand in glove, on a daily basis, to 
provide the water observations and data necessary for NOAA to generate 
comprehensive water predictions. I will also highlight how these 
relationships, internally with NOAA's research division, and others 
with the National Science Foundation (NSF), National Center for 
Atmospheric Research (NCAR), and the broader academic community through 
the Consortium of Universities for the Advancement of Hydrologic 
Sciences, Inc. (CUAHSI), play a critical role in the effort to improve 
our water prediction capabilities. In addition, NOAA's Federal partners 
in the water information enterprise also include the Environmental 
Protection Agency (EPA), the U.S. Department of Agriculture (USDA), and 
the National Aeronautics and Space Administration (NASA).
    Finally, I will discuss how the aim of all of our work is to build 
a Weather- and Water-Ready Nation through the provision of impact-based 
decision-support services. Research efforts executed within and 
sponsored by NOAA's Oceanic and Atmospheric Research (OAR) ensure the 
observing methodologies and modeling approaches are well founded and 
continue to advance the state of the art. NOAA's Satellite and 
Information Service (NESDIS) delivers continuous and comprehensive 
observations from NOAA, NASA, and international partner agency 
satellites, to provide comprehensive environmental information to 
support the models and forecasts. To ensure we deliver decision support 
services effectively, with the maximum reach and value possible, we 
collaborate with our customers, partners in Federal, State, regional, 
local, and Tribal governments and agencies. In addition, NOAA's success 
depends critically on continuing to foster and expand relationships 
with partners in academic, non-governmental, and private sector 
organizations, as well as international partners. These members of the 
broader water enterprise will contribute to and benefit from advances 
in water prediction. In time, these efforts can stimulate growth of the 
private-sector component of the water enterprise and foster effective 
decisions from critical decision makers at all levels.
    NOAA's full range of capabilities--from weather and water modeling 
to precipitation forecasting, to drought early warning--are central to 
addressing these aforementioned risks. Our goal is to foster ongoing 
strategic partnerships and provide the water intelligence to help 
communities and decision makers prepare for and mitigate water risks, 
as well as more effectively manage and protect their water resources.
                              water risks
Flooding
    I will begin with the threat from inland flooding and coastal 
inundation--too much water. In 2016 alone, the U.S. experienced four 
inland flood events costing over $1 billion dollars per event. Billion-
dollar inland flood events of this magnitude have not occurred twice in 
the same year in the United States since 1980. Those four events 
included: (1) the Sabine and Red River flooding on the border between 
Texas and Louisiana in March; (2) the Houston, Texas, floods in April; 
(3) the West Virginia floods in June; and (4) the flooding in Southern 
Louisiana on August. The last example in Louisiana was the most 
damaging U.S. flood event since Superstorm Sandy impacted the Northeast 
in 2012. These four inland flood events together took 49 lives and cost 
$16 billion to the U.S. economy.\3\ Moreover, these numbers exclude the 
costly impacts of Hurricane Matthew from Florida to North Caroline in 
October 2016, which claimed an additional 49 lives and cost an 
additional $10 billion. Much of those costs were due to historic levels 
of river flooding in eastern North Carolina that damaged 100,000 homes, 
businesses, and other structures. In this example, as with all land-
falling tropical cyclones, coastal storm-surge and inland flooding 
combined to exacerbate inundation in coastal communities, a point that 
I will return to when discussing NOAA's planned capabilities for 
integrated water prediction at the coast.
---------------------------------------------------------------------------
    \3\ NOAA National Centers for Environmental Information (NCEI) U.S. 
Billion-Dollar Weather and Climate Disasters (2017). https://
www.ncdc.noaa.gov/billions/.
---------------------------------------------------------------------------
    While most of these examples come from the Southern United States, 
every part of the country experiences costly flooding, and every State 
is at risk, as illustrated by recent examples from California, to Iowa, 
to West Virginia, to the Carolina Coast. We only have to go back a few 
years to see the flooding and devastation that occurred in New England 
in 2011 from the remnants of Hurricane Irene. This past summer in my 
own back yard in Ellicott City, Maryland, the town experienced a 
destructive flash/river flood. Today, we are concerned about the 
ongoing flooding from snowmelt in the West as well as the potential for 
flooding in North Dakota.
Drought and Water Availability
    Only 5 years ago in 2012, we had an extensive drought that covered 
over 80 percent of the contiguous United States. This was the most 
extensive drought to affect the United States since the Dust Bowl of 
the 1930s. In 2012, moderate to extreme drought conditions affected 
more than half the country for a majority of that year. Costly drought 
impacts and their associated effects on water availability occurred 
across the central agriculture States resulting in widespread harvest 
failure for corn, sorghum and soybean crops, among others. The 
associated summer heat wave also caused 123 direct deaths, but an 
estimate of the excess mortality due to heat stress is still unknown. 
Additionally, these conditions resulted in an estimated $31.5 billion 
in economic loss.\4\ As a result, Federal Agencies, including NOAA 
convened a National Drought Forum, bringing together State, regional, 
industry, and Federal partners to identify a set of priority actions 
for working with these partners to help reduce the impacts of future 
events. From 2012 through 2016, significant portions of the country, 
especially nearly the entire State of California, continued to 
experience ``exceptional drought'' conditions, causing extensive 
economic and health impacts, including challenges to the viability of 
agricultural production, impacts on drinking water supplies, increased 
energy costs, and harm to ecosystems. Fortunately, the 2016-2017 winter 
rain and snowfall have mitigated drought conditions in much of the 
West. Unfortunately, new areas of extreme drought developed in States 
across the Northeast and Southeast. As of March 14, 2017, nearly 90 
million Americans are affected by drought conditions.\5\
---------------------------------------------------------------------------
    \4\ NOAA National Centers for Environmental Information (NCEI) U.S. 
Billion-Dollar Weather and Climate Disasters (2017). https://
www.ncdc.noaa.gov/billions/.
    \5\ U.S. National Integrated Drought Information System, U.S. 
Drought Portal, www.drought.gov/drought/.
---------------------------------------------------------------------------
Local Variability from Flood to Drought--Managing Water Resources
    Over time for a given community, flood and drought are potentially 
interrelated events, as they represent a pendulum between extremes in 
regional hydrometeorology--that is the relationship of the weather and 
the natural water system of a given region--often over a period of only 
a few years or less. While the severity of these water extremes varies 
regionally, we have seen these swings in every part of the country. 
This situation was particularly well illustrated in California in 2016 
as the 5-year drought persisted. In late 2016 and 2017, drought in many 
areas ended with near record mountain snowfalls and lower-elevation 
rainfall and associated historic flooding. Nevertheless, the long-term 
impacts of the drought in California continue to be felt, as more than 
100+ million trees, which perished in the drought, have become a public 
safety hazard due to falling limbs and compromised root systems. In 
addition, extensive wildfire driven by the drought expanded the risk of 
erosion and debris flows during flood events. A second example of the 
inter-relationship between flood and drought comes from the Mississippi 
Basin where threats to river navigation impacted barge traffic between 
2011 and 2012. Challenges ranged from opening spillways to manage river 
flooding in 2011, to using explosives to remove rock pinnacles in 2012 
to allow for safe navigation during the extreme low flows created by 
rapidly developing drought conditions. These extreme swings from flood 
to drought, and the rapid variation from one extreme to another, 
underscore the value of and need for improved water intelligence to 
enable water resources managers, and other decision makers, to make 
informed decisions that mitigate impacts and optimize the use of our 
increasingly stressed water supply.
Water Quality
    Finally, the combination of flood, droughts, and high temperatures 
have a cumulative damaging effect on water quality, and poorer water 
quality impacts human and ecosystem health, the third threat in this 
trio of growing water risks. Floods can move contaminants, droughts 
concentrate them, and warmer water temperatures accelerate biochemical 
processes, which lead to the generation of harmful algal blooms and 
hypoxia conditions. Natural events, however, such as heavy downpours, 
high-temperatures, high-runoff, low stream flow, and coastal inundation 
can combine with human activities to pose serious threats to water 
quality. When water temperatures warm, these threats can take the form 
of harmful algal blooms, hypoxia, and pathogens that can have a 
significant impact on the effective management of riverine, estuarine, 
and marine ecological systems, which support a wide variety of human 
uses and community needs including recreational and drinking water 
purposes.
    NOAA, through NOS, continues its efforts in partnership with States 
and other Federal agencies to predict the runoff of chemicals from 
fertilizers and to forecast the evolution of harmful algal blooms and 
hypoxia to better warn citizens and agencies. These types of predictive 
services help local communities, managers and State-based decision-
makers make timely, effective decisions that impact public health and 
safety.
The Need for an Integrated Response
    Across the country, communities are struggling with inter-related 
and increasing threats from water extremes from flood to drought, and 
their associated threat to water quality. In the context of day-to-day 
decisionmaking about water resource management, transportation and 
navigation, and ecosystem management, these variable conditions require 
a more advanced and integrated approach to more effectively support 
both event-driven, high impact events and routine high-value 
decisionmaking.
                   noaa's response: progress to date
    NOAA is bringing its long tradition of science and technology to 
bear on the problem of water risks and water resource management, and 
has taken critical new steps to transform its capabilities to provide 
integrated water prediction services to meet the needs of our user 
community, including water resource managers and emergency managers.
Water at NOAA
    Water is a common thread that runs through NOAA's mission areas 
serving stakeholders through a variety of field offices, laboratories 
and national service outlets. It is important to note that NOAA offices 
are both producers and consumers of water information services.
    NOAA's portfolio includes several well-known programs that feature 
forecast and modeling products and services. These include the river 
forecasts provided by NWS River Forecast Centers, the Digital Coast 
service provided by the National Ocean Service (NOS), the water 
temperature modeling produced and used by the National Marine Fisheries 
Service, the large-scale precipitation data collected and managed by 
NESDIS, and the water-related research activities of OAR's grant-making 
programs, labs and cooperative institutes. In addition, NOAA is home to 
the National Integrated Drought Information System (NIDIS), an 
interagency program based at NOAA that implements the NIDIS Act (Public 
Law 109-430) to, among other things, provide drought early warning 
information and coordinate Federal research in support of drought 
information.
    Within NOAA, and in fact among all Federal agencies, the NWS is 
unique in that weather and water forecasting are explicitly articulated 
in its mission statement. Yet water prediction is quite different from 
weather prediction in three important respects. The first is that 
weather prediction takes place on a scale of minutes and hours, to days 
and weeks, whereas water prediction begins at minutes and hours, and 
extends to much longer time scales, out to weeks to months and even 
years. The second difference is that humans alter the natural water 
systems to harness the Nation's water resources for transportation, 
energy, agriculture, recreation, ecosystem management, and water supply 
missions. In order to accurately model surface water, NOAA's water 
prediction systems must account for these human-driven processes as 
they have a profound impact on the water forecast. The third is that 
responsibility for these operations spans multiple Federal, Tribal, 
regional, State and local entities. While weather and water prediction 
is the responsibility of NOAA, water prediction requires a symbiotic 
partnership with multiple Federal and State water agencies. For 
example, the USDA has been generating statistical water supply forecast 
for the western United States since the 1930s.
    As an illustration of routine and real-time collaboration among 
agencies, NOAA issues river and water supply forecasts leveraging 
stream gauge observations from the USGS and reservoir operation 
information from USACE. In turn, the USACE uses NOAA forecasts to make 
reservoir release decisions in accordance with their operational 
manuals, which are then integrated into the NOAA forecast models. NOAA 
also collaborates closely with State water agencies and decision makers 
across the country, such as in New York, Colorado, Oklahoma, and 
California all of whom use NOAA forecasts in their prediction efforts.
    Given the close operational relationship among agencies at the 
Federal level, the USGS, the USACE, NOAA, and Federal Emergency 
Management Agency (FEMA) have joined together in a consortium for 
Integrated Water Resources, Science, and Services, or (IWRSS). IWRSS 
was formalized in May 2011 by the signing of a Memorandum of 
Understanding by the Administrators for NOAA and the USGS, and the 
Assistant Secretary of the Army for Civil Works, who, together with the 
Deputy Administrator of FEMA renewed the MOU in March 2016. In 
additional, NOAA is an active participant in the Western States Federal 
Agency Support Team (WestFAST), an interagency team created to support 
the Western States Water Council and the Western Governors Association 
on water resources. NOAA is currently providing the Federal liaison to 
that team to ensure we address the complex challenges and needs of 
water resources stakeholders in the Western United States. NOAA also is 
a co-chair, with USDA, of the National Drought Resilience Partnership, 
which engages with a wide array of stakeholders and coordinates Federal 
agency activities related to drought resilience.
    The National Water Center acts as a catalyst for these interagency 
activities, especially as they relate to the improvement of NOAA's 
water prediction capability and decision support services. The National 
Water Center is focused on developing national water prediction 
capabilities and facilitating collaboration among the entire water 
enterprise, including public, private and academic sectors. Moreover, 
it was purposefully built with an operational forecasting center, which 
is envisioned to be staffed with personnel from multiple Federal 
agencies. The goal is to establish an integrated and common operating 
picture for water resources.
The Demand for Improved Water Prediction and the Impetus for Change
    Stakeholders from across the spectrum have called for improvements 
in water prediction services over the past several years.
    Given the complexity of water risks, the equally complex landscape 
of inter-related water jurisdictions, and the demand for trusted, 
reliable data and information NOAA is challenged to provide the highest 
degree of excellence in official predictions of water resources.
    In 2012, a report from the National Academy of Sciences reinforced 
this challenge, noting a significant gap between the state of 
hydrologic science today and current hydrologic prediction operations 
of the NWS. The services in use today are reliable, accurate, and 
dependable, but still rely heavily on scientific techniques from the 
1970's. The report noted that substantive advances in hydrologic and 
water resources science accomplished by the research community during 
the past three decades have generally not been incorporated into the 
NWS river forecast operations.\6\
---------------------------------------------------------------------------
    \6\ Weather Services for the Nation: Becoming Second to None, 
Report of the Committee on the Assessment of the National Weather 
Service's Modernization Program, National Academy of Sciences, 2012.
---------------------------------------------------------------------------
    In addition, a report published by the National Academy of Public 
Administration in 2013 found that NWS needs to significantly shift its 
approach from generating weather products and service outputs to fully 
embrace societal outcomes, what we now call impact-based decision-
support services. The report also found that without considerable 
engagement of stakeholders and a framework for change, it would be 
difficult for the agency to fully achieve this vision.\7\
---------------------------------------------------------------------------
    \7\ Forecast for the Future: Assuring the Capacity of the National 
Weather Service, National Academy of Public Administration, 2013.
---------------------------------------------------------------------------
    From 2012 through 2014, NOAA carried out engagement sessions with 
water resources stakeholders across the United States, which reinforced 
the demand for improved water prediction. These sessions revealed the 
need for consistent, high space and time resolution, integrated water 
analyses, predictions and data to address critical unmet information 
and service gaps related to floods, drought, water quality, water 
availability, and weather. Simply put, stakeholders articulated a clear 
need for ``street-level'' water information to address gaps necessary 
to inform critical water resources decisions communities make on a 
daily basis.
    Finally, from May to July 2016, NOAA held a series of meetings with 
water resources stakeholders across the United States that we called, 
``The National Conversation on Integrated Water Information for the 
21st Century.'' Participants in these meetings highlighted and further 
validated the need for and importance of consistent, integrated water 
predictions, data, and analyses. They also emphasized the importance of 
NOAA's work to convert predictions, data, and analyses into actionable 
``street-level,'' water intelligence by developing effective 
visualization and decision support tools that link hydrologic, 
infrastructural, economic, demographic, environmental, and political 
data and are informed by social science. Perhaps most importantly, 
participants emphasized the need for regular communication, 
consultation, and engagement with decision makers. These regional 
conversations also highlighted the growing need to improve the accuracy 
of seasonal prediction of rainfall and related drought conditions, 
particularly for State-level water resource managers. This year, NOAA 
launched a new set of stakeholder engagements to continue this 
important dialogue in basins around the country.
The National Water Center: A Catalyst for Advancing Operational Water 
        Prediction
    Recognizing these challenges, NOAA embarked on a new effort to 
augment its investments in river forecasting and dramatically improve 
water prediction through the establishment of the National Water Center 
(NWC) in Tuscaloosa, Alabama. With the support of Congress, design work 
began in 2010, and construction began in 2012, with a ribbon cutting 
ceremony declaring an initial operating capability of the NWC in May of 
2015. The NWC is designed to facilitate partnerships and collaboration 
across organizations and sectors to deliver a new generation of water 
information and decision-support services that will:

  --Strengthen the Nation's water forecast capabilities by serving as 
        an innovation incubator and research accelerator for water 
        prediction;
  --Improve national preparedness for water-related disasters;
  --Provide predictive information to enable and advance integrated 
        water resource management at the local, State, regional, and 
        national levels;
  --Serve as a hub for collaborative meetings between water managers, 
        forecasters, stakeholders, and public officials;
  --Inform event-driven, high impact, and routine, high-value water 
        decisions at the local, State, regional, and national levels; 
        and
  --Provide water information that supports and promotes water 
        stewardship.

    Since 2015, the NWC has hosted over 60 interdisciplinary and 
scientific meetings, with more than 2,500 participants from a spectrum 
of government, academic and private sector entities. The NWC has become 
hub of activity and an incubator for national and international 
collaborations on the next generation of water resources science and 
services.
    Designed to be a truly national center, the NWC supports water 
prediction nationwide. It already has begun fostering scientific 
excellence and innovation by promoting research and collaboration 
across Federal water science and management agencies, academia, and the 
private sector and by accelerating the transition of research to 
operational applications and forecasting.
NOAA's Key Water Prediction Capabilities
    NOAA has developed a suite of new capabilities and activities that 
address a full range of water information services from floods to 
drought to water quality challenges. These are highlighted below:

    The National Water Model.--The National Water Model referenced 
above, represents NOAA's first foray into high-performance computing 
for water prediction, thereby augmenting and supporting the generation 
of official forecasts at NWS River Forecast Centers (RFCs). In response 
to requests from a broad spectrum of water resources stakeholders, the 
National Water Model also produces spatially-continuous forecasts of 
soil moisture, evapotranspiration, runoff, snow water equivalent and 
other parameters. Considering just streamflow, the model suite produces 
over 32 billion discrete pieces of information each day. Moreover, the 
National Water Model leverages the National Hydrography Dataset 
developed by the USGS and EPA as an authoritative geospatial 
representation of the Nation's connected rivers and streams commonly 
used by other water information agencies and communities. This new 
capability expands NOAA's forecast density capability 700-fold, such 
that millions of people will be able to receive real-time relevant 
forecasts of water in their local rivers and streams based upon the 
spatial and temporal scales upon which communities make decisions; i.e. 
mapped right down to the street level.
    Hydrologic Ensemble Forecast Service (HEFS).--The HEFS is an 
operational system that provides risk-based water information for local 
decision makers. This additional new transformational hydrologic 
forecasting capability is being implemented with support provided by 
the scientific community and individual States. HEFS leverages the 
skill in weather and seasonal forecasts to produce reliable and 
skillful ensemble forecasts of streamflow at lead times ranging from 1 
hour to 1 year, which is particularly useful for long-range water 
resource planning. HEFS provides uncertainty ranges for water resources 
forecasts at all time scales and enables better risk-informed decisions 
to support water management. In 2015, the first version of HEFS was 
implemented at NOAA's 13 RFCs. In 2016, all RFCs began running HEFS 
every day in real-time at selected headwater forecast locations.
    Improving Seasonal Prediction of Precipitation.--During the 
regional and national conversations, stakeholders articulated the clear 
need to improve seasonal predictions of precipitation related to 
drought and other water resource partner needs. To help meet this need, 
Geophysical Fluid Dynamics Laboratory (GFDL) research unit has made 
important advances for incorporating atmosphere, ocean, and land 
observations into their prediction systems. This, combined with 
recently developed modeling strategies, have led to improved 
understanding and prediction of weather elements (such as temperature 
and precipitation) on time scales from weeks to seasons and beyond. A 
recent advance from these efforts has been an improvement of the 
Forecast Low Ocean Resolution (FLOR) seasonal prediction model. GFDL 
has conducted experiments with the new version of FLOR that show 
significant improvements in seasonal precipitation forecast skill for 
the Western U.S. over a 25-year historical period, including during the 
2015-2016 El Nino. The results represent a significant improvement over 
major national and international prediction models in more correctly 
simulating the Western U.S. precipitation during the 2015-2016 El Nino. 
This emerging capability is being evaluated for operational 
implementation at NOAA's Climate Prediction Center, which issues 
seasonal precipitation and temperature forecasts.
    Runoff Risk Tool.--The Runoff Risk tool provides real-time guidance 
related to the influence of soil conditions, rainfall rates, and 
snowmelt on runoff. This provides farmers with information about when 
to apply fertilizer and manure to their fields, and when not to, in 
order to minimize loss of nutrients to rivers and lakes. This technique 
relies on experimental runoff risk analyses from NOAA combined with on-
farm research data and partner relationships at the State and local 
levels. Wisconsin and other States are beginning to offer this science-
based approach to nutrient-application timing in order to minimize the 
subsequent runoff into streams, rivers and lakes and other water bodies 
that ultimately contribute to Harmful Algal Blooms (HAB).
    Digital Coast.--The NOAA-sponsored Digital Coast website is focused 
on helping communities address coastal issues and meeting the needs of 
the coastal management community. The website provides not only coastal 
data, but also the tools, training, and information needed to make 
these data truly useful. For example, the Red Cross is using the 
Digital Coast's Coastal County Flood Exposure Snapshot to communicate 
vulnerability information to its network members. This tool captures 
the numbers of elderly and impoverished residents living in the 
floodplain as well as the number of critical facilities located there, 
which is valuable information for pre-event and recovery planning.
    National Water Level Observation Network (NWLON) and Operational 
Water Level Forecasting.--NOAA provides a network of 210 long-term, 
continuously operating water level stations throughout the United 
States and its territories and is the ``go to'' for real-time coastal 
water level and meteorological observations. This network provides a 
key coastal component to NOAA's forecast model framework and is 
critical for developing and validating NOAA tsunami and storm surge 
warnings. NWLON is also a framework for other local to Federal partner 
gauging networks, providing water level observations for integrated-
water decision support applications, such as Coastal Inundation 
Dashboard and High Tide Bulletin. NOAA enhances these observations and 
applications with a national network of Operational Nowcast and 
Forecast Hydrodynamic Model Systems (called, OFS) that generate 
predictions about the present and future states of coastal water 
levels. The hydrodynamic models are driven by real-time data and 
meteorological, oceanographic, and/or river flow rate forecasts and are 
located in ports, harbors, estuaries, Great Lakes and coastal waters of 
the United States. The Operational Forecast System will be a critical 
connection between riverine and coastal environments as these models 
are integrated into the National Water Model effort.
    The National Integrated Drought Information System (NIDIS) Regional 
Drought Early Warning Systems.--NIDIS is building a nationwide network 
of drought early warning systems (DEWS) to improve drought monitoring, 
forecasting, planning, and preparedness capabilities. The development 
and implementation of regional DEWS allows for responsiveness to 
particular geographic and hydrologic circumstances, as well as value-
added information needs specific to stakeholders in the respective 
areas. Eight regional DEWS have been established, and to complete a 
national drought early warning system, NIDIS will continue to develop 
regional DEWS in watersheds and regions across the country, such as the 
Mid-Atlantic and New England areas.
    Lake Shasta Prediction Tools.--In California's water system, 
endangered salmon and other protected species require cold water to 
survive, especially during drought conditions. Monitoring and 
understanding water temperature, particularly the cold-water pool in 
Lake Shasta, is crucial to balancing the competing demands of 
California water users and protected resources. In 2016, NOAA 
implemented new environmental monitoring and modeling systems as part 
of a suite of experimental decision-support tools that water managers 
will use to evaluate water management trade-offs. During this water 
year, a new distributed temperature sensor provided real-time water 
temperature profiles in Lake Shasta, and these observations are fed 
into reservoir, stream temperature, and salmon survival forecast 
models. Regular interactions with California's State Water Board, the 
California Department of Water Resources, the California and U.S. 
Departments of Fish and Wildlife, the USBoR and others in the Central 
Valley's Technical Management Team ensured that these efforts were 
guided by the needs of water managers.
    Forecasting Harmful Algal Blooms (HAB).--NOAA produces operational 
HAB forecasts in the Gulf of Mexico and Lake Erie. Based on monitoring 
programs and models of water flow and circulation, these forecasts 
alert coastal managers to highly toxic harmful algal blooms before they 
cause serious illness and even death, and pose serious threat to fish, 
shellfish, and other wildlife. Early warning provides health officials, 
environmental managers, and drinking water treatment facility 
operators' information to guide beach and shellfish bed closures and 
adjustments to water treatment. HAB and other ecological forecasts are 
illustrative of NOAA's developing capability in integrating water 
predictions, weather predictions, and water quality predictions. For 
example, an early-season HAB forecast for Lake Erie estimates the bloom 
severity based on measurements of phosphorus loading from the Maumee 
River combined with historical records to create the weekly estimates 
for the remainder of the loading season. In the Gulf of Maine, NOAA 
provides weekly graphical river hydrologic and weather outlooks that 
feed HAB forecasts from March through June, including real-time updates 
on precipitation variations, snow melt, and the likelihood of 
significant precipitation, river runoff, and northeast wind potential 
for the 7-day period. NOAA is partnering with the EPA, NASA, and USGS 
to expand our HAB prediction abilities in other large inland waters to 
allow better national-level HAB management.
                going forward: the noaa water initiative
    With the establishment of the new National Water Center, NOAA has 
now embarked on a comprehensive effort, the NOAA Water Initiative, an 
unparalleled level of internal collaboration across NOAA, effectively 
merging research, satellite observations, data analytics, and unmatched 
user and customer connections to enhance the agency's capability to 
develop and deliver better water information services. This NOAA Water 
Initiative, published in December 2016, envisions a Nation in which 
everyone from individual citizens to businesses and public officials 
has timely, actionable information about their vital water resources at 
their fingertips, and can factor this information wisely into their 
decisions about water risks, use, management, planning, and security. 
The common goal of the NOAA Water Initiative is to transform water 
information service delivery to better meet and support evolving 
societal needs. To achieve this goal, the agency will pursue five 
interdependent strategic objectives: (1) build strategic partnerships 
for water information services; (2) strengthen water decision support 
tools and networks; (3) support water modeling, forecasting, and 
precipitation prediction; (4) continue water information research and 
development (R&D); and (5) sustain water-related observations. In 
particular, the future pillars of our water prediction efforts will 
include:

  --Transforming NOAA's inland and coastal hydrologic prediction 
        services through ongoing improvements to existing services, 
        including the continued development of the National Water 
        Model, coastal mapping, and continued implementation and 
        utilization of the HEFS;
  --Transforming NOAA's quantitative precipitation forecasting 
        capabilities at time scales necessary to support water supply 
        and water resource management--from daily to weekly to 
        seasonal, and to decadal, at continental-to-global scales--
        through research into key underlying physical processes, 
        including sources of predictability, levels of forecast 
        uncertainty, and the development of forecast tools on sub-
        seasonal to seasonal and longer timescales;
  --Recognizing water as habitat by integrating physical and ecological 
        modeling of water quantity and water quality (e.g., 
        temperature, salinity, ocean color, etc.) to inform effective 
        management of riverine, estuarine, and marine ecological 
        functions and processes in support of a wide variety of human 
        uses and community needs; and
  --Working with the larger water research community to continue NOAA's 
        water modeling efforts in support of the longer range goal of 
        integrated Earth system modeling in the context of a unified 
        modeling approach, where best practices in process 
        understanding, model development, data assimilation, post-
        processing, and product dissemination will be leveraged across 
        disciplinary boundaries. This activity will be carried out in 
        keeping with the updated interagency Charter for the 
        Partnership on the National Earth System Prediction Capability.

    To achieve these goals and related efforts and address our Nation's 
growing water resources challenges, NOAA will tap into the Nation's 
best talents from the public, private, and academic sectors. The NOAA 
Water Initiative calls for a growing partnership across multiple 
sectors to create and deliver water information to meet the needs of 
the 21st century. NOAA will support this idea by working toward the 
objectives and outcomes of the initiative and leveraging the resources 
of the National Water Center to provide next-generation, science-based 
water information and decision support services. We look forward to 
collaborating with a full array of partners, decision makers, and users 
to achieve this vision for the benefit of our communities, our economy, 
and our planet.
                               conclusion
    Water is essential to our way of life. Integrated water risks 
stemming from increasing demand, limited supply, floods, droughts, and 
water quality require more comprehensive, integrated, state-of-the-
science solutions. The new National Water Center, established at NOAA, 
serves as a necessary catalyst for ongoing advancements in water 
prediction to serve society's needs. With this new center in place, 
NOAA is fostering strategic partnerships to help communities and 
decision makers prepare for and mitigate water risks, as well as more 
effectively manage and protect our Nation's water resources.

    Senator Shelby. Dr. Busalacchi.
STATEMENT OF DR. ANTONIO J. BUSALACCHI, JR., PRESIDENT 
            OF THE UNIVERSITY CORPORATION FOR 
            ATMOSPHERIC RESEARCH (UCAR)
    Dr. Busalacchi. Good afternoon Chairman Shelby, Ranking 
Member Shaheen, and members of the subcommittee.
    Let me begin by thanking you, Mr. Chairman, for your strong 
support of science, in particular, with respect to your vision 
on the topic of this hearing, as well as the members of this 
subcommittee.
    During my 34 years working in Maryland and now at UCAR in 
Boulder, Colorado, I have observed the tremendous support this 
subcommittee has provided to the NSF, NOAA, NIST, NASA, as well 
as the university communities that collaborate with these 
agencies. Much of the work we do at UCAR would not be possible 
without robust funding for the Geosciences directorate at NSF. 
And many of the successes you hear today are the direct result 
of past funding that enabled the science. Moreover, the topic 
of today's hearing on water is one that fits exactly at the 
nexus of scientific and social understanding that supports 
economic development and national security. So I thank you for 
inviting me to testify on this very timely subject.
    Without a doubt, now is an extremely exciting time in the 
world of water. Today's water enterprise is a triumvirate that 
consists of academia, the public sector, and the private 
sector. A key example of this collaboration in the water 
enterprise is now the new National Water Model which was 
recently operationalized by the National Weather Service at the 
National Water Center.
    The implementation of this forecast tool could not be more 
timely given the serious flood catastrophes in 2016, as we saw 
in Baton Rouge, Louisiana, Ellicott City, Maryland, and Kanawha 
County, West Virginia. As Dr. Uccellini just mentioned, the 
National Water Model generates hydrologic or streamflow 
forecasting in real time for an unprecedented 2.7 million 
locations of the Nation's rivers and streams. These forecasts 
are vital to the operations of the Nation's water 
infrastructure supporting hydropower, agriculture, navigation, 
recreation, and other purposes while informing emergency 
management during floods and droughts with vital watch, 
warning, and outlet products, as we just saw this past weekend.
    The National Water Model's history begins with the initial 
investment in basic research by the National Science Foundation 
to develop a hydrologic version of our regional weather 
research forecast model by NCAR within the organization I lead. 
The NSF funding in the WRF-Hydro Model, as it is known, was 
then leveraged with contributions by mission oriented agencies 
such as NOAA, NASA, and the USGS, together with a partnership 
with the private sector in the form of Barron Weather Services. 
This model enabled the utilization of a vast array of 
environmental observations--from stream gauges to satellites--
to provide an initial capability to forecast the flow of a 
region's rivers and streams, the moisture of its soil, and the 
quantity and type of precipitation.
    Initial testing of this model in Colorado during the 
anomalous flooding of 2013 demonstrated several of the model's 
strengths over conventional flood forecasting methods. Working 
with Barron Weather Services of Huntsville, Alabama, NCAR 
scientists then applied the model for further testing and 
adoption in the nation of Romania. Later, the nation of Israel 
collaborated with NCAR to implement their own version of WRF-
Hydro for operational hydrologic prediction. The success of the 
model's implementation in these two countries led NOAA to 
pursue utilizing elements of WRF-Hydro as the basis for the 
National Water Model.
    Let me reiterate that the development and implementation of 
this model from research to operations could not have happened 
without sustained collaborative engagements between academia, 
industry, and government. The model's implementation also 
created several new and exciting opportunities for industry 
with the prospect of broadcast hydrology on the horizon. 
Imagine turning on your television on the nightly news and 
getting not just a weather forecast, but also street level 
visualization of river and stream forecasts. Such services 
could be highly valuable not just to the private citizens and 
small businesses, but also emergency managers. Such services 
could also be provided abroad, providing benefits to citizens 
of other nations who struggle to manage their water issues.
    Looking to the future, there is a need for continued 
investment in hardware, software, and brain ware. For example, 
such predictive models are only as good as the observations 
that go into them.
    In closing, let me state that although water enterprise has 
a long history of integrating advances in science, technology, 
and engineering for the betterment and protection of society, 
it is currently undergoing a major transformation by leveraging 
new datasets, models, and computational resources. At present, 
we have a new modeling approach that shows enormous potential 
in forecasting events that affect life and property. Looking 
over the horizon, there are capabilities we will want to obtain 
in a future state that will better enhance economic and 
national security. Needless to say, given the scarcity of 
water, it is incumbent upon us to move forward towards this 
future state as rapidly and as economically as possible.
    Thank you.
    [The statement follows:]
          Prepared Statement of Dr. Antonio J. Busalacchi, Jr.
    Good Morning Chairman Shelby and Ranking Member Shaheen, and 
members of the subcommittee. I am Dr. Tony Busalacchi, President of the 
University Corporation for Atmospheric Research, and recently elected 
member of the National Academy of Engineering. UCAR is a nonprofit 
consortium of 110 member universities granting degrees in atmospheric 
and related earth sciences. UCAR's primary activity is managing, on 
behalf of the National Science Foundation, the National Center for 
Atmospheric Research (NCAR). In addition, UCAR manages a suite of 
programs (UCAR Community Programs) that provide service and support to 
the academic community.
    NCAR is a federally funded research and development center with 
over 600 scientists and engineers conducting weather, water, climate, 
air quality, and space weather research. Staff also manage 
supercomputers, research aircraft, and Earth observing systems 
available as a resource to the Nation's research community. Our UCAR 
member universities and staff scientists conduct research for use by 
government agencies and the private sector. We aim to further the 
understanding of atmospheric and related phenomena and help create more 
accurate environmental forecasts that protect lives and property, spur 
economic growth, support the national defense, and enhance our quality 
of life.
    Prior to becoming the UCAR President, on August 1, 2016, I served 
as Director of the Earth System Science Interdisciplinary Center and 
Professor of Atmospheric and Oceanic Science at the University of 
Maryland. Before my time at the University of Maryland I was a civil 
servant for 18 years at the NASA Goddard Space Flight Center (GSFC), 
the last 10 years of which I was a chief of the Laboratory for 
Hydrospheric Processes and member of the Senior Executive Service.
    Let me begin first by thanking you Mr. Chairman for your strong 
support of science in particular with respect to your vision on the 
topic of this hearing, as well as all the members on this subcommittee. 
During my 34 years working in Maryland and now at UCAR I have observed 
the tremendous support this subcommittee has provided for the National 
Science Foundation (NSF), the National Oceanic and Atmospheric 
Administration (NOAA), the National Institute for Standards and 
Technology (NIST), and the National Aeronautical and Space 
Administration (NASA), as well as for the university research 
communities that collaborate with these agencies.
    There can be no doubt that science and the resulting societal 
benefit from these agencies and universities has enhanced our quality 
of life while contributing to both economic and national security. Much 
of the work we do at UCAR and NCAR would not be possible without robust 
funding for the Geosciences directorate at NSF and many of the 
successes you hear today are the result of past funding that enabled 
the science. Moreover, the topic of today's hearing on water is one 
that fits exactly in the nexus of scientific and social understanding 
that supports economic development and national security so thank you 
for inviting me to testify on this very timely subject.
    Following the suggestion in the committee's letter inviting me to 
testify, I will organize my testimony around the following questions 
that I believe are critical in examining the ``water nexus'':

    1.  What constitutes the current state of the Nation's water 
enterprise?
    2.  What is the desired future state of the Nation's water 
enterprise?
    3.  What are the gaps that need to be addressed to get to the 
desired future state?
    4.  What processes and policies are needed to identify roles and 
responsibilities? What, if any, are the next steps for Congress?

    I will highlight the areas where the water nexus can best provide 
value to the taxpayer and where impacts can best be made. I will also 
discuss how this is an area where we have seen one of the most 
significant research to operations (R2O) transfers in our Nation's 
history and it demonstrates how the research and operations communities 
collaboratively addressed a hard problem that has tremendous benefit to 
all American taxpayers.
1. what constitutes the current state of the nation's water enterprise?
    Today's water enterprise is a triumvirate that consists of 
academia, the public sector and the private sector. The Government's 
traditional role within this triumvirate is the protection of life and 
property; the building and management of both small and large 
infrastructure; and the enhancement of national security through the 
issuance of forecasts for severe weather to include floods, droughts 
and anything water related. The private sector's traditional role is to 
create customized and tailored hydrologic products and services to a 
broad customer base of private individuals and businesses in a 
multitude of sectors. The academic and research community, including 
Federal laboratories and centers, works to improve our common 
understanding of the Earth System and improve operational products. The 
three work together, often in a public-private partnership, to advance 
synergistically our knowledge and operational capabilities.
    We must also acknowledge that the growth of private sector products 
and services in the water enterprise has benefitted from public 
investment both in providing foundational observational data and 
observing networks, and in creating open community models which have 
enabled companies to quickly make new products that have hydrologic 
applications--not just in the United States, but around the world. This 
approach has provided an incalculable return on investment of public 
tax dollars and goes largely unnoticed even as we all recognize that 
the protection of life and property is paramount.
    Now is an extremely exciting time in the world of water. The 
investments over several decades have led to advances in science and 
technology such that the U.S. is poised to make a leap forward in our 
understanding of weather, climate and water through modeling, 
monitoring, and forecasting. These advances include the development of 
new and more complex models of the land surface and, more broadly, the 
Earth System; vastly improved weather predictions that help us estimate 
weather and water risk; expanding resources for supercomputing and 
communications; and new statistical techniques to enhance the skill of 
streamflow forecasts. NCAR is collaborating with Federal agencies such 
as NOAA, NASA, DOI and DOD to integrate these advances into tools and 
services that will deliver far more information to water sector 
entities than has been possible before.
    A key example of this collaboration in the water enterprise is the 
new National Water Model (NWM), which was recently operationalized by 
the National Weather Service at the National Water Center in 
Tuscaloosa, Alabama. The implementation of this forecast tool could not 
be more timely given the serious flood catastrophes in 2016 as we saw 
in Baton Rouge, La, Ellicott City, MD, and Kanawha County, WV. The NWM 
generates hydrologic (streamflow) forecast outputs in real time for an 
unprecedentedly comprehensive collection of the Nation's rivers and 
streams--2.7 million total locations for prediction. This detailed 
information from the NWM provides a significant complement to the 
existing operational streamflow forecasting service, which previously 
relied solely on simpler models and techniques to forecast for 
thousands of critical locations. These forecasts are vital for the 
operation of the Nation's water infrastructure, supporting hydropower, 
agriculture, navigation, recreation and other purposes, and informing 
emergency management during floods and droughts with vital watch, 
warning and outlook products. The initial deployment of the NWM is a 
major new direction for the water enterprise, and one that has enormous 
future potential to augment the value of the traditional forecasting 
services, with broad economic and social benefits. Achieving this full 
potential will depend on the success of continued investments and 
progress toward resolving long-standing scientific and observational 
challenges in water prediction.
    The National Water Model's history begins with the initial 
investment in basic research by the National Science Foundation to 
develop a regional weather research forecast (WRF) tool at NCAR. WRF 
was developed in an open-platform, open-access community manner that 
ensured that anyone who wants to utilize it to test forecasting 
hypotheses, to tune it to specific phenomena, or privatize could easily 
do so without charge or clearance. WRF's developers also ensured that 
it was highly adaptable and portable, so researchers could use it as 
the foundation for forecasting systems that could predict a wide 
variety of environmental phenomena. Indeed, since WRF's creation, 
researchers from academia, government and industry have created WRF-
Chem, Hurricane WRF, WRF-Crop, WRF-Fire, and many others.
    One such WRF spin-off is WRF-Hydro, which has connected 
hydrological forecasting with weather forecasting. WRF-Hydro is an 
excellent example of the triumvirate across academia, the public sector 
and the private sector as the initial investment by the NSF was 
leveraged with contributions by mission oriented agencies such as NOAA, 
NASA, and the USGS together with a partnership with the private sector 
in the form of Barron Weather Services. This model enabled the 
utilization of a vast array of environmental observations--from stream 
gauges to satellites--to provide an initial capability to forecast the 
flow of a region's rivers and streams, the moisture of its soil, and 
the quantity and type of precipitation. Initial testing of this model 
in Colorado during the anomalous flooding events of 2013 demonstrated 
several of the model's strengths over conventional flood forecasting 
methods. Working with Barron Weather Services of Huntsville, Alabama, 
NCAR scientists then applied the model for further testing and 
operationalization in Romania. Later, the nation of Israel collaborated 
with NCAR to implement their own version of WRF-Hydro for operational 
hydrologic prediction. The success of the model's implementation in 
these two countries led NOAA to pursue utilizing elements of WRF-Hydro 
as the basis for the National Water Model, following several rounds of 
improvements, testing, and integration with existing weather 
forecasting systems.
    The development and implementation of this model from research to 
operations could not have happened without sustained collaborative 
engagements between academia, industry, and government. The 
implementation has already proved useful in the provision of flood 
forecasting associated with several anomalous events--including a 
Hurricane landfall in North Carolina last year and the more recent 
flood events in California this winter. I should also add that NCAR 
delivered the model 2 years ahead of schedule and on budget.
    The model's implementation has identified several new and exciting 
research questions for the academic community to pursue, including the 
improvement of quantitative precipitation forecasts to enhance our 
capacity to predict rapidly changing flood inundation conditions. 
Knowing how much, when, and where precipitation will fall is a vexing 
question and a critical one to answer in order to improve flood 
forecasting and water resource management more generally.
    The model's implementation has also created several new and 
exciting opportunities for industry, with the prospect of broadcast 
hydrology on the horizon. Imagine turning on the nightly news and 
getting not just a weather forecast, but also street level 
visualization of river and stream forecasts. Such services could be 
highly valuable not just to private citizens and small businesses, but 
also emergency managers. Such services could also be provided abroad, 
providing benefits to citizens of other nations who struggle to manage 
their water issues.
    Such predictive models are only as good as the observations that go 
into them. In the past 3 years, NASA and NOAA have launched three 
satellites that have been vital in improving water forecasting and 
services. In 2014, NASA and the Japanese Aerospace Exploration Agency 
(JAXA) launched the Global Precipitation Measurement (GPM) satellite, 
which provides next- generation observations of rain and snow worldwide 
every 3 hours. The GPM mission contributes to advancing our 
understanding of Earth's water and energy cycles and improves the 
forecasting of extreme events that cause natural disasters. GPM 
applications include extended capabilities in monitoring and predicting 
hurricanes; enhanced prediction skills for weather and climate; 
improved forecasting capabilities for floods, droughts, and landslides; 
better agricultural crop forecasting; and the monitoring of freshwater 
resources.
    In 2015, NASA launched the Soil Moisture Active Passive (SMAP) 
satellite, which provides measurements of the land surface soil 
moisture and freeze-thaw state with near global coverage. SMAP 
measurements coupled with hydrologic models can determine soil moisture 
conditions in the root zone, which enables forecasters to better 
understand water and energy fluxes at the land surface and improve 
flood prediction and drought monitoring.
    Most recently, in 2016, NOAA and NASA launched the Geostationary 
Operational Environmental Satellite--R Series (GOES-R, now GOES-16 
since launch and operationalization). GOES-16 provides weather pattern 
images every 30 seconds, providing more accurate and timely information 
on severe storms from space than ever before. Additionally, GOES-16's 
Geostationary Lightning Mapper instrument can detect the presence of 
lightning, providing forecasters with the ability to focus on 
developing extreme weather and before storms produce precipitation.
    In addition to overhead observations, real-time stream gauges from 
the United States Geological Survey (USGS) and other agencies are also 
critical to the modeling effort. The USGS, in partnership with many 
state, local, and tribal entities, provides a backbone of both surface 
and underground water information, all of which can directly feed into 
national forecasting systems and improve model performance.
    Scientific understanding of the water cycle and its 
interconnectedness with the Earth system underpins activities across 
many Federal agencies. The U.S. Army Corps of Engineers, the Bureau of 
Reclamation, and the Department of Energy now use the latest in 
atmosphere- hydrology modeling to understand risks to water security. A 
critical emerging capability is continental-domain hydrologic modeling, 
where the latest hydrologic models can now produce realistic estimates 
of weather and climate risk over large geographical domains. These 
advances enable water agencies to develop coherent strategies to 
modernize and maintain their infrastructure investments.
    Water security is clearly of global importance. We have recently 
seen how droughts are the catalyst for migration and regional 
instability, motivating the need for new understanding of water 
security in different corners of the globe. The recent community 
efforts in Earth System modeling capabilities have resulted in 
incredible advances in global hydrologic modeling. In one recent 
example, NCAR's Community Earth System Model was used to simulate the 
limited water availability in Iran. There is currently a strong 
collaboration between NCAR and the university community (led by the 
Consortium for the Advancement of Hydrologic Science Inc.) to 
substantially advance global hydrologic modeling capabilities. The 
effort focuses on integrating scientific understanding and modeling 
capacity developed by different groups working around the world in 
order to improve simulations of hydrology worldwide.
    Although the water enterprise has a long history of integrating 
advances in science, technology and engineering for the betterment and 
protection of society, it is currently undergoing a major 
transformation through leveraging these new datasets, models, and 
computational resources. This transformation is exciting and will, with 
continued investment, lead to major gains in capability that benefit 
the United States on many fronts. I truly believe these are gains that 
the public will be able to readily grasp. At present, we have a new 
modeling approach that shows enormous potential in forecasting events 
that affect life and property.
    Looking over the horizon, there are capabilities we will want to 
obtain in a future state that will better enhance economic and national 
security. Needless to say, given the scarcity of water, it is incumbent 
for us to move towards this future state as rapidly as possible.
 2. what is the desired future state of the nation's water enterprise?
    Better understanding of water requires an appreciation by society 
of its intrinsic value and its inter-connected nature to other events. 
Thus, an Earth system approach that encompasses more than just water 
should shape our thinking. I believe that sub-seasonal (2 weeks) to 
seasonal (3 months) forecasts are the sweet-spot the scientific 
community should aim to improve to build a generation of operational 
water products that empower our society to better manage water 
resources. Such forecasts, however, are only possible by considering 
the entire earth system as whole as Sub-seasonal to Seasonal (S2S) 
forecasts are driven by global factors such as the pattern of sea 
surface temperature in the Pacific and Atlantic. These sea surface 
patterns, in turn, drive tropical thunderstorms that can drive weather 
patterns over the U.S. causing floods and drought. While the research 
community has established this connection, the creation of a reliable 
S2S forecasting system based on this knowledge of ocean-atmosphere 
coupling is in its infancy and requires a significant research 
investment.
    In times of drought, particularly in the Western U.S., water 
resource managers rely heavily on the ability to predict conditions at 
seasonal time scales--that is, looking 3 months ahead, or even 
further--as they need to know the likely snowmelt runoff volume that 
can be expected to refill reservoirs in the spring. These managers need 
to anticipate their long-term ability to provide water for agriculture, 
hydropower, the environment, and the needs of the populations of major 
cities. Seasonal streamflow forecasts are likely the most economically 
valuable water prediction in the Western U.S., which the allocation and 
management of billions of dollars' worth of water depend. Recently, 
sub-seasonal forecasting for shorter periods, such as looking out 3 and 
4 weeks ahead, or beyond this to the following month, has emerged as a 
major focus of scientific and operational research. Reservoir release 
decisions can be made based on sub-seasonal information that lead to 
water savings and better economic decisionmaking about water supplies 
for a range of customers each year. NCAR is working with NOAA, USACE 
and the Bureau of Reclamation to find the best ways to harness sub-
seasonal weather predictability and develop new information products 
for the water sector, including ensemble atmospheric and streamflow 
predictions at the watershed scale, looking ahead for weeks to seasons.
    Ensemble methods are a computationally intensive strategy for 
getting a handle on uncertainties in simulating weather, climate and 
water. Because all of our models and datasets are not perfect, 
scientists and forecaster work to quantify forecast errors by running 
them many times rather than just once, each time with slight variations 
that represent possible errors in our data and models. This gives a 
forecaster a basis for telling a decision-maker the confidence of the 
forecast--including the risk that it may be wrong, or that it may 
exceed a critical threshold, such as a levee elevation. Along with 
improving model resolutions, ensemble methods are a major strategy 
through which weather, climate, and water modeling agencies around the 
world are seeking to upgrade the value of the information that can be 
provided to decision makers. NCAR has developed real-time ensemble 
forecasting capabilities for a number of USACE and Reclamation 
reservoirs, some of which are now helping to guide the development of 
decision approaches for better management of water resources in the 
face of weather and climate variability that leads to extremes such as 
floods and droughts.
    The state of hydrologic forecasting and the enterprise that 
supports it should progress in a similar fashion as the weather 
enterprise--particularly in the development of the private sector. 
Currently, private weather companies provide tailored, visualized, and 
broadcast weather forecasts for private individuals and businesses. 
This capability is built on the foundation of strong government and 
academic observations and modeling. New developments like the National 
Water Model and the success of National Integrated Drought Information 
System (NIDIS) help to show that we are now on the verge of rapid 
development of forecasting abilities for water and related issues. When 
these modeling and monitoring systems are as robust as weather 
observations and models, then we can expect a similar rapid development 
of the hydrologic services industry. Several industry sectors would 
seek such services--energy, agriculture, fishing, shipping, recreation, 
tourism, etc. Additionally, private citizens living near rivers and 
streams would pull up applications and websites to get real-time 
hydrologic information and forecasts at their specific locations of 
interest. As the hydrologic industry strengthens, more well-paying 
private sector job opportunities will manifest, companies will manage 
their operations more effectively and efficiently (meaning more profits 
for shareholders, more opportunities for export, and better prices for 
customers), and private citizens will mitigate risks to themselves and 
their property.
    Efforts such as the National Water Model provide a compelling 
example of the future development of academic research into the coupled 
nature of hydrology and other earth systems. The NWM also provides 
useful insights into Operations-to-Research pipeline activities--given 
that researchers have long been intrigued by the scientific questions 
raised when a research model becomes operational. When an operational 
prediction model confronts observations on a 24/7 basis, the research 
community is presented with a wealth of information as why a forecast 
is successful and when it is not. Research fields are emerging from 
these early advances in a variety of areas such as improving streamflow 
forecasts relevant to managed water systems, coupled freshwater-
atmosphere modeling, and coupled freshwater-ocean modeling. 
Interdisciplinary science between hydrology and soil science, land use, 
geography, and other fields could are also emerging as opportunities 
for new research and, eventually, applications.
 3. what are the gaps that need to be addressed to get to the desired 
                             future state?
    A host of improved water cycle observing capabilities are needed to 
accelerate our predictive capacity for hydrology. These measurement 
platforms include expanded space-borne and ground radar estimates of 
precipitation, expanded high altitude Unmanned Aerial Vehicle 
operations for very high resolution measurement of snowpack, glaciers 
and flood inundation in near real-time or as events, expanded 
groundwater observing and monitoring networks and significantly 
expanded streamflow measurement networks. Each of these measurements 
provide critical hydrologic characterization information that 
quantifies where water exists on and within the land. Utilizing our 
modern communications capabilities in combination with scientific 
innovation we can ingest these critical observations into a new 
generation of water forecasting tools thereby improving model forecast 
accuracy and timeliness.
    The underlying hydrologic modeling systems themselves are already 
undergoing rapid transformation, moving from fairly simple place based 
models, to highly detailed descriptions of water moving on and through 
the Earth's landscape, including its interactions with human 
infrastructure. However, we are only just beginning to quantify and 
realize the potential we have for transforming this information into 
actionable forecasts. Significant work remains in linking together the 
different components of the Earth System in these models, in 
particular, the ways in which we quantify the impact humans have on 
hydrologic processes. Improved descriptions of groundwater systems, 
snowpack, precipitation forecasting, flood inundation and vegetation 
water use all remain as critical focus areas. The methods in which we 
ingest or `assimilate' observational data into these models remains a 
key challenge for many forecast systems and, finally, our models must 
always have the capacity to evolve as changing landscape conditions and 
changing water management practices continue to drive real change in 
local and regional hydrologic cycles.
    This new generation of computer models, like the National Water 
Model, are both data intensive and computationally intensive. They are 
designed to model the continuum of water from the highest peaks to the 
ocean shores and do so with ever increasing spatial fidelity. Like an 
early, grainy digital photograph which now has become crystal sharp and 
lifelike, these models continue to improve their spatial resolution 
which creates an enormous need for high performance computing. Also, 
like early digital cameras, the computers of today will simply not be 
adequate or acceptable in a few years' time to meet the challenge of 
predicting ``water everywhere, all the time.'' These new computing 
systems will push the `Petaflop' horizon and will also create new 
challenges and opportunities in data transmission to get critical 
information from centralized computing centers out to the public and to 
the private sector where its value can be realized. Already, data from 
platforms like the national radar network and, soon, the National Water 
Model will be ubiquitously available from cloud Internet services. This 
creates enormous opportunities for private sector capital investment 
and revenue potential in addition to the basic goal of saving lives and 
property. In short, there is now and will continue to be a ``flood'' of 
hydrologic information and the public-private-academic water enterprise 
stands at the crossroads of meeting societies water needs and 
opportunities.
    To create better Quantitative Precipitation Forecasts, more work 
needs to be done to better understand the interplay between soil 
moisture and water vapor, a better monitoring of the water vapor in the 
atmosphere in features such as atmospheric rivers, and better modelling 
at higher resolution scales that resolves convection in a more accurate 
manner. Research funding to pursue the scientific understanding will 
make us more aware of the earth's interconnected systems, 
instrumentation funding for remotely sensed and in situ observations 
will better monitor the earth's water, and investments in computing, 
data assimilation, and science will yield better models.
    Understanding the atmosphere-ocean connection and modelling it well 
will enhance various water forecasting tools. An opportunity to 
leverage the advances made possible by the National Water Model is 
better coastal forecasting so that approaches to predicting inland 
flooding can be merged with coastal flooding. Fifty percent of 
America's population lives near the coast of an ocean or the Great 
Lakes. The blending of tidal, storm surge, and coastal inundation 
forecasts is in its nascent stage--and work has barely begun to couple 
these traditionally coastal forecasting tools with the National Water 
Model. The Nation's estuaries are a source of great economic strength, 
and their utility is best realized when we can predict and understand 
ebb and flow anomalies. Further investments in updating these 
traditional ocean models to combine with the National Water Model would 
significantly improve the protection of life and property at the 
coasts, and provide for the security of US Naval, Coast Guard, and 
Merchant Marine installations. Atmospheric Rivers (AR's)--narrow bands 
of water vapor carried from the south pacific to the west coast--also 
significantly impact water conditions, particularly in California. Over 
the past year, these intense rain events have reversed the California 
drought, but have also caused localized flooding. Investments in better 
AR modelling will enable water resource managers to anticipate intense 
precipitation and manage reservoirs accordingly. Finally, weather 
events that initiate over the oceans--hurricanes, deep low pressure 
systems, and severe storms--are hard to predict partly because of the 
relative lack of in situ data sources. Sustained ocean observations at 
various depths and coordinates will enhance our ability to initialize 
models and assimilate good data into these models so that we can better 
predict weather events. All of these forecasting tools--coastal 
forecasts, AR forecasts, and other weather forecasts--are significantly 
improved through improved and sustained ocean observations.
    4. what processes and policies are needed to identify roles and 
    responsibilities? what, if any, are the next steps for congress?
    Clearly, the water enterprise relies on all three partners of the 
weather enterprise, that being, the public sector, the private sector 
and academia. What can Congress do to leverage the best hydrologic 
forecast at the least cost? What is the role of the public sector 
relative to the private sector? The real issue is what do we want this 
enterprise to look like 20 years from now at the national and 
international level?
    U.S. leadership in water forecasting technology is essential. Other 
nations are already aggressively utilizing their foreign aid programs 
to market and deploy their water observation and prediction technology. 
Once in place those systems can create strong partnerships for decades 
in terms of technology and IT exchange. By not actively pursuing these 
applications with flagship U.S. technologies the U.S. will miss out on 
a host of water related development business opportunities. Water is 
both essential and a potential problem everywhere in the world and the 
nations with strong relationships on water and water infrastructure 
development are nations that have a common cause for strategic policy 
development. How nations use and share their water resources are 
inextricably tied to their fundamental views on fairness, freedom and 
opportunity.
    On the near-term horizon, we see the need for investment in several 
observation, modeling, and computing activities to move the enterprise 
to the next step. We need more `operational' satellite capabilities, 
but at an affordable cost. Several of the satellites I mentioned 
earlier are research grade, and do not meet data latency standards that 
are needed. Operational satellites should include constellations of 
low-earth orbiting platforms for improved precipitation measurement, 
improved land surface characterization through hyperspectral imagery, 
improved topographic profiling through laser altimetry and/or lidar 
based methods. Radar gaps in the Western U.S. must be filled or 
supplemented by improved satellite, ground based, or airborne radar 
precipitation platforms. The water enterprise needs sustained support 
for advancing the use of data assimilation into all of our modeling 
systems, particularly hydrologic models, and in improving the spatial 
fidelity of those models. While various Earth System component modeling 
systems are beginning to be loosely connected, significant work remains 
in terms of making sure those coupled processes are completed with the 
accuracy and spatial resolution required for high value environmental 
prediction information. Finally, we have recently developed a set of 
potential compute requirements for the next 4 years for The National 
Water Model which will be nearly 10-fold from today's usage.
    For better applications, the enterprise will need improved 
development of `web mapping services' for the effective and efficient 
display and querying of geospatial data including weather and water 
forecasts. These new tools will form the backbone of environmental 
situational awareness, which synthesize not only weather and water 
forecast information but also information on human infrastructure, 
transportation, recreation, emergency response and economy. They will 
serve as the next generation of decision support tools which, like 
today's proximity sensors in cars, will provide decision makers and the 
public alike, information on hazards before they occur.
    The subcommittee should also seek to better connect research 
activities across the government with operational requirements at NOAA. 
Programs that support active and strategic research to operations 
pathways have been challenged in years past with fits and starts and ad 
hoc application. The success of the research to operations achievement 
in the development of the National Water Model should be replicated 
often, so as to bring the best science into water forecasting 
operations effectively and efficiently. Working across agencies can be 
difficult as well, as varying agency missions sometimes snag collective 
advancement towards specific goals. Offices with the funding and the 
wherewithal to ensure that research finds its way into operations will 
ensure that these successes are more common. I would also add that such 
activities should not be limited to government operations; indeed, many 
publicly funded research successes should more easily find their way 
into private sector solutions and applications. Finally, this pathway 
should be a two-way street. When scientists are tasked with research 
problems that are generated by an operational requirement, academics 
can directly participate in ensuring that society benefits.
    Finally, I ask the subcommittee to consider the institution of a 
decadal survey for the entire weather enterprise that would include 
water. The boundaries of operations have been driven by the science 
into new forecast areas, and the weather, water and climate enterprise 
needs to consider doing what we have done in the area of earth 
observations, and start planning over 10 year periods. Prior to taking 
on my new position at UCAR, I served as the co-chair of the National 
Academies' Decadal Survey for Earth Science and Applications from Space 
and the roadmap it will provide will prove critical to NOAA, NASA and 
USGS. Given the implications of water and weather, I urge this 
subcommittee to consider enacting into law a decadal survey for this 
community. The Board on Atmospheric Science and Climate at the National 
Academies is currently addressing the issue and there is wide spread 
recognition that with limited resources our community must present 
Congress and the administration with priorities. A decadal process will 
allow us to prioritize what has to be done and do so in recognition of 
the current fiscal realities.

                                APPENDIX

    The following appendix illustrates the power and promise of the 
National Water Model to significantly improve forecasters' abilities to 
provide valuable hydrologic forecasting products.
    Appendix page 1 provides the technical specifications of the NWM.
    Appendix page 2 demonstrates the modelling pathway from 
initialization through product development--by way of soil moisture, 
terrain flow, catchment, and infrastructure integration.
    Appendix page 3 is a sample visualization that the NWM would 
provide to river and weather forecasters.
    Appendix page 4 is a continental view of the rivers and streams 
that NWM can forecast.
    Appendix page 5 is a continental view of a NWM soil moisture 
forecast.
    Appendix page 6 is a view of the NWM's integration with 
infrastructure to provide forecast products for important 
transportation corridors impacted by hydrologic events.
    Appendix page 7 is an inundation forecast product for North and 
South Carolina during Hurricane Matthew.
    Appendix page 8 is a CONUS map of NEXRAD radar coverage. Filling 
gaps in NEXRAD radar will enable better weather and hydrologic 
forecasts.

                            APPENDIX PAGE 1
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                            APPENDIX PAGE 2
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                            APPENDIX PAGE 3
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                            APPENDIX PAGE 4
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                            APPENDIX PAGE 5
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                            APPENDIX PAGE 6
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                            APPENDIX PAGE 7
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                            APPENDIX PAGE 8
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Senator Shelby. Ms. Glackin.
STATEMENT OF MARY GLACKIN, HEAD OF SCIENCE & FORECAST 
            OPERATION, SENIOR VICE PRESIDENT FOR 
            PUBLIC-PRIVATE PARTNERSHIPS FOR THE WEATHER 
            COMPANY, AN IBM BUSINESS
    Ms. Glackin. Chairman Shelby, Ranking Member Shaheen, and 
distinguished Senators, I appreciate the opportunity to share 
perspectives on weather forecasting in general and water 
forecasting in particular. U.S. businesses lose more than $500 
billion each year because of water and weather-related issues. 
Thus, short-term warnings and forecasts as well as sub-
seasonal, seasonal, and even decadal forecasts are essential 
for planning and mitigation efforts.
    The Weather Company and our subsidiary brands, the Weather 
Channel and Weather Underground, provide millions of people and 
businesses around the world with the best weather forecasts, 
content data, connecting with them through web, mobile, as well 
as our outside publishing partners which include Apple, 
Samsung, Google, and Facebook.
    Our services provide critical decision support to a wide 
variety of business sectors. For example, our precipitation 
forecasts are essential for the agricultural sector for a range 
of decisions including watering and fertilizer application. Our 
services rely on the critical national infrastructure of data 
and models provided by the public sector. We improve the 
forecasts and tailor the products to customer needs utilizing 
other environmental, business, and social data and our deep 
understanding of business sectors to enable effective 
decisionmaking.
    Today I want to highlight two areas where closer 
collaboration among the public, private, and academic sectors 
would result in keeping people safe from water threats and 
improved decisionmaking. The first is improved presentation of 
hazardous weather warnings. We deliver the National Weather 
Service warnings to consumers unaltered with attribution and in 
a timely fashion. However, it troubles us to see the public 
often confused about this critical lifesaving information due 
to message composition and labeling.
    While we applaud the National Weather Service efforts to 
revamp its watch and warning paradigm, we are concerned these 
efforts will still fall short of what is needed and may be too 
slow compared to the rapid pace of social change and 
communication technology. The private sector has capabilities 
in this area that are unmatched in the other sectors. And for 
that reason, the private sector must be more fully embraced by 
the Government in the warning process to accomplish the needed 
transformation.
    Let me provide a specific example for floods, flash floods, 
and storm surges. In this case, we should be routinely 
delivering personalized information that clearly shows where 
the individual consumer is with respect to the expected or 
ongoing flooded areas--right on their mobile device, much like 
you would use your traffic app or transportation app. We should 
be showing what surrounding areas are expected to be under 
water and by how much, and we should be depicting safe escape 
routes and other specific recommendations. The current paradigm 
of generically worded message and even static images falls well 
short of serving the public effectively.
    The second area I would highlight for improvement is the 
necessity to accelerate new science and technologies from 
research to operations. I too would like to applaud the efforts 
of NCAR, NOAA, and other players in the advancement of the 
National Water Model. It is indeed a great example. But for 
many areas, improvements in precipitation forecasts are limited 
by inadequate observations.
    Our Nation has a national resource to provide global 
observations of precipitation. It is the NASA's Global 
Precipitation Mission. However, because it is a NASA research 
mission, the data is not reported in a timely enough fashion to 
allow us to utilize the data for real time precipitation 
forecasting. Further, as a private company, we are reluctant to 
invest in NASA missions because their long-term futures are 
uncertain.
    The time and expense of satellite missions no longer allows 
us the luxury of having research missions and then follow on 
operational missions. We should be selectively looking at 
research missions that have high potential return and taking 
steps to make them operational.
    Finally, I would like to comment on what I know will be 
difficult budget choices before this subcommittee. The ground 
and space-based observations, modeling, and data archiving for 
weather, water, and climate provide foundational datasets for 
value-added services provided by the private sector. These 
critical infrastructure programs underpin the Nation's economic 
and national security and should be strengthened.
    While it may be tempting to focus solely on water 
forecasting on times scales from minutes to months, the reality 
is local governments, businesses, and many other public and 
private interests seek to understand long term weather and 
water trends as they make their critical infrastructure 
decisions. For sensitive businesses, an occasional drought may 
be acceptable, but more frequent droughts would result in an 
entirely different business decision. As tough choices are 
made, we urge you to focus Federal dollars on these 
foundational, observation, and scientific capabilities to 
enable the extremely capable private sector to better serve the 
Nation.
    Thank you.
    [The statement follows:]
                 Prepared Statement of Mary M. Glackin
    I appreciate the opportunity to share perspectives on weather 
forecasting in general and water forecasting in particular. Water is 
essential for human life and prosperity. Yet it often manifests itself 
in ways that put life and property in jeopardy. If there is too much or 
too little water, or whether it rains too much-too quickly, or even 
just unexpectedly, it presents challenges to individuals and businesses 
alike. U.S. businesses lose more than $500 billion each year because of 
water and weather-related issues. Thus short term warnings and 
forecasts as well as sub-seasonal, seasonal, and decadal forecasts are 
essential for planning and mitigation efforts.
    The Weather Company and our subsidiary brands, The Weather Channel 
(weather.com) and Weather Underground (wunderground.com), provide 
millions of people and businesses around the world with the best 
weather forecasts, content and data, connecting with them through 
television, web, mobile, and tablet screens, as well as through our 
outside publishing partners including Apple, Samsung, Google and 
Facebook.
    Our services provide critical decision support to a wide variety of 
business sectors. For example, our precipitation forecasts are 
essential for the agricultural sector for a range of decisions 
including watering and fertilizer application, as well as estimates of 
crop yields. In addition, our daily, sub-seasonal and seasonal 
forecasts are used by thousands of clients globally in the energy, 
insurance and aviation sectors clients in a wide variety of 
applications.
    The Weather Company is a global enterprise headquartered in 
Atlanta, Georgia with operations centers in Andover, Massachusetts; 
Madison, Wisconsin; San Francisco, California; and other centers in the 
U.S. and around the world.
    Recognizing the importance of weather and climate to the U.S. and 
global economy and the leading role we play in helping consumers and 
businesses make smarter decisions, IBM purchased The Weather Company a 
little over a year ago.
    Our company like other U.S. companies are able to compete globally 
in the marketplace by leveraging the foundational capabilities 
including data, models and basic research provided by NOAA, NASA and 
other Federal agencies. We improve the forecast and tailor products to 
customers' needs, utilizing other environmental, business, and social 
data and our deep understanding of business sectors to enable effective 
decisionmaking.
    The public, private and research sectors have worked together 
effectively in many areas. I would highlight the implementation of GOES 
R which is on-going. Through NOAA efforts, the private sector has been 
engaged every step of the way and able to provide input to improve 
utilization of this tremendous national resources.
    I'll highlight two areas where the private, public and research 
sectors should be working work together to keep people safe from water 
threats and improve decisionmaking.
           improved presentation of hazardous water warnings
    The Weather Company is an essential partner in the NWS's public 
safety mission. We deliver on our web and mobile properties and through 
our partners, the National Weather Service's warnings to consumers, 
unaltered, with attribution and in a timely fashion. However, it 
troubles us to see the public often confused about this critical 
lifesaving information. Due to message composition and labeling, they 
are sometimes unable to comprehend the threat to their property and 
lives.
    While, we applaud NWS' efforts to revamp its watch and warning 
paradigm we are concerned those efforts will still fall short of what 
is needed and may be too slow to evolve relative to the rapid pace of 
social change and communications technology.
    Through The Weather Channel and our media partners, we are in the 
business of communicating information to the public and have garnered 
vast expertise in this critically important service. How the public 
consumes information has changed dramatically and we are leading those 
changes. The private sector has capabilities in this area that are 
unmatched in the other sectors. For that reason, the private sector 
must be more fully embraced by the government in the warning process to 
accomplish the needed transformation in how wecollectively contribute 
to the public safety mission.
    For example, for floods, flash floods and storm surges, we should 
be routinely delivering personalized information that clearly shows 
where the individual consumer is with respect to the expected or 
ongoing flooded areas--right on their mobile device. We should be 
showing what surrounding areas are expected to be impacted under water 
and by how much. We should be depicting safe escape routes and other 
specific action recommendations. The current paradigm of generic worded 
messages and even the static images fall well short of serving the 
public effectively.
               accelerate new technologies to operations
    The second area is on the necessity to accelerate new technologies 
from research to operations. We applaud the joint effort of the 
National Centers for Atmospheric Research and NOAA that has advanced 
the community water modelling effort, known as WRF-Hydro now in 
operations at the NWS and providing critical stream and river 
forecasts. Beyond its utility to the general public, it also provides a 
valuable resource which we will utilize to serve business interests in 
sectors such as ground transportation. For example, rail companies need 
hyper local information about the potential of rail bed washouts to be 
proactively reroute trains, position repair crews and supplies.
    A key area that should be addressed though is observations. In this 
case, I would point to the NASA's satellite Global Precipitation 
Mission, known as GPM. This mission has been extremely successful 
providing observations of global rainfall. However, because it is a 
NASA research mission the data isn't reported in a timely enough 
fashion to allow us to utilize the data for real time precipitation 
forecasting and alerting. Further, as a private company we are 
reluctant to invest in NASA missions because their long-term futures 
are uncertain.
    The time and expense of satellite missions no longer allows us the 
luxury of having research missions and then follow on operational 
missions. This 1970s era paradigm of NASA flying research missions and 
then NOAA following years later with operational missions is no longer 
effective in meeting the Nation's needs.\1\ We should be selectively 
looking at research missions that have a potential high value return 
and take the steps to make them operational. The private sector could 
provide valuable input in selecting those missions. We believe GPM is 
clearly one.
---------------------------------------------------------------------------
    \1\ Because of necessity the Soumi NPP mission which was intended 
to be a research mission became an operational mission. This is the 
exception to the rule, not the norm though.
---------------------------------------------------------------------------
                             budget choices
    Finally, I'd like to comment on what I know will be difficult 
budget choices before the subcommittee.
    The ground- and space-based observations, modeling, and data 
archiving for weather, water, and climate provide foundational data 
sets for our value-added services. And, all major advances in weather 
and climate forecasting have been powered by federally sponsored 
research. These critical infrastructure programs underpin the Nation's 
economic and national security and should be strengthened.
    While it may be tempting to focus solely on water forecasting on 
times scales from minutes to months, the reality is local governments, 
businesses and many other public and private interests, seek to 
understand longer term weather and water trends as they make their 
critical infrastructure decisions. For sensitive businesses, an 
occasional drought may be acceptable but more frequent droughts would 
result in a different mitigation action. Availability of sufficient 
fresh water for both cities and agriculture is a critical national 
security issue, and having accurate long-term predictions of its supply 
is necessary for effective long-term planning and infrastructure.
    Federal dollars should focus on these foundational scientific 
capabilities which will enable the extremely capable private sector to 
better serve the Nation.

            Thank you.

    Senator Shelby. Mr. Koon.
STATEMENT OF BRYAN KOON, DIRECTOR OF THE FLORIDA 
            DIVISION OF EMERGENCY MANAGEMENT, AND 
            FORMER PRESIDENT OF THE NATIONAL EMERGENCY 
            MANAGEMENT ASSOCIATION (NEMA)
    Mr. Koon. Thank you, Chairman Shelby, Ranking Member 
Shaheen, and members of the subcommittee for holding this 
hearing today.
    As you stated, I am the Director of the Florida Division of 
Emergency Management and I am testifying before you as the Past 
President of the National Emergency Management Association, 
which represents the emergency management directors of the 50 
States, Territories, and DC. I am pleased to be here to address 
water hazards and the role of forecasting and data in response 
and mitigation efforts.
    The challenge of dealing with water hazards in the United 
States continues to increase. Economically, vital coastal 
cities are preparing for changes in sea level. Drought 
conditions in the plains wreak havoc on agricultural and 
exacerbate wildfires. Extreme variations in snowfall rates have 
caused California to shift from historic drought to overflowing 
reservoirs. Flooding across the Nation last year cost the lives 
of 138 and $46 billion in damages. All of these incidents 
illustrate the need for investments in data collection and 
modeling to assess the enormous toll the water issues take on 
coastal and inland communities and support efforts to better 
equip our communities to meet these challenges.
    Fortunately, the Nation has a number of tools to help deal 
with water hazards. First is the modeling and forecasting of 
the most impactful events. We have made major strides in 
forecasting, but continual improvements are imperative. More 
precise forecasts and longer lead times will allow us to focus 
our resources.
    For example, as populations continue to increase in 
hurricane prone locales, a smaller error cone and accurate 
predictions of hurricane intensity will ensure that we are 
evacuating only those locations necessary saving lives, 
reducing costs, and accelerating recovery. Underlying those 
forecasts are the models that provide the data meteorologists 
require. The research organizations that develop and refine 
these models must be appropriately supported so that they may 
continue to reduce forecast errors and expand predictive 
capabilities.
    The National Weather Service plays a crucial role in this. 
Its work in creating a weather-ready nation has led to a number 
of initiatives, such as embedding emergency response 
specialists in EOC and in a field to provide first responders 
and elected officials with real time data to inform the 
decision-making process. This commitment to work with emergency 
managers helps us proactively alert our citizens and prepare 
our communities.
    The ability to communicate the risk of water hazards is 
another tool. Americans need to understand their vulnerability 
to coastal and inland flooding so they can apportion their risk 
and build accordingly. This comes largely in the form of 
Government produced maps that indicate the likelihood of a 
particular location flooding in a given year. These maps must 
be accurate, precise, and up to date, consider an everchanging 
built environment, widely disseminated, and easily understood. 
They should be as granular as possible, such as the street 
level maps produced by the National Water Center. Too often, 
they are not actionable for the average citizen and individuals 
and communities suffer the consequences. Without good 
information driving or land use choices, we will place our 
citizens and our assets in water's way.
    That long-term planning information must be complimented by 
real time warnings that provide enough lead time. Evacuating a 
densely populated coastal community such as the Florida Keys or 
Hampton Roads area in Virginia can take days. And it is vital 
that residents have both an understanding of the hazard causing 
the evacuation and confidence in the data driving the order.
    Third, mitigating against the impact of future water 
hazards is essential. This will come in the form of adopting 
and enforcing strong building codes with the safety and 
economic well-being of the occupants as the primary 
consideration. It will require that new construction be built 
in a way that is insurable and that existing infrastructure be 
improved and hardened to deal with the disasters of the future. 
The expenditures made today will be more than justified by the 
reduction in response and recovery costs in the decades ahead.
    Greater investment and promotion of mitigation activities 
at the State and local level can be accomplished by better 
coordination between involved Federal agencies, production and 
analysis of actionable data, aligning mitigation to other 
programs, and rethinking the Federal grant structure to 
incentivize investment.
    Finally, we must use insurance as a mechanism not only to 
protect our investments to help us appropriately consider the 
risks posed by flooding. In additional, the National Flood 
Insurance Program (NFIP) reduces the overall threat and impact 
of flooding. By continuing to engage State and local 
governments and private insurers, FEMA can leverage critical 
data and encourage risk reduction strategies that will reduce 
future losses.
    It is critical that Congress reauthorize the NFIP by 
September 30. The program is essential to my State and many 
others across the country. The NFIP can be a force multiplier 
as we communicate risk and as one of the most local touch 
points the Federal Government has to impacted communities. The 
NFIP is a comprehensive flood risk management program that 
helps communities make data driven decisions and is essential 
for actions that addresses risk and utilizes best available 
data and science.
    Senators, the threat is real and growing, but the 
appropriate tools are in place to make a significant 
difference. They must be supported and leveraged to achieve 
maximum results. I thank you for the opportunity to testify 
today and welcome any questions you may have.
    [The statement follows:]
                    Prepared Statement of Bryan Koon
                              introduction
    Thank you Chairman Shelby, Ranking Member Shaheen, and members of 
the subcommittee for holding this hearing today. As you stated, I am 
the Director of the Florida Division of Emergency Management and I am 
testifying before you as the Past President of the National Emergency 
Management Association (NEMA), which represents the emergency 
management directors of the 50 States, territories, and District of 
Columbia. I am pleased to be here to address water hazards and the role 
of forecasting in response and mitigation efforts.
    As we examine the threats from various water hazards, I want to be 
sure we recognize the great work being done across Federal, State, and 
local governments, private sector, and community based organizations. I 
also believe we have tools at our disposal that remain underutilized 
and there are existing strategies we can leverage to promote the 
efficient use of taxpayer dollars before a disaster.
              threats from floods and other water hazards
    The challenge of dealing with water hazards in the United States 
continues to evolve. Communities in my State prepare for and mitigate 
against changes in sea level that impact coastal cities that are 
critical to our economic health. Drought conditions in the Plains have 
wreaked havoc on agriculture and exacerbated wildfires over the last 
few years. Extreme variations in snowfall rates have caused California 
to shift from historic drought to overflowing reservoirs in less than a 
year. Historic flooding from a limited-warning, no-name event impacted 
millions of people and caused devastation in Louisiana outside of the 
100-year flood plain. These hazards will continue to evolve and 
emergency managers, my peers across the country, understand that we 
play a critical role in communicating risk, mitigating against future 
disasters, and working with partners across government, advocacy 
organizations, and the private sector to build effective coalitions to 
ensure that we are prepared for these risks.
    Flooding: Threats related to flooding were on full display last 
year, representative of the fact the flooding is this country's most 
frequent and costliest disaster. According to MunichRE, 19 significant 
floods impacted the Nation last year, the most in one single year since 
records began in 1980. There were 15 flood or climate-related disasters 
that exceeded $1 billion per event and in total, these events resulted 
in the loss of 138 lives and cost over $46 billion. In 2016, the 
expenses to the National Flood Insurance Program (NFIP) totaled $4 
billion, exceeding the premium dollars it had collected to cover those 
claims. Significant events in Louisiana, Texas, West Virginia, and the 
numerous other States impacted by flooding and storm surge illustrate 
the need for attention to the enormous economic toll flooding takes on 
coastal and inland communities.
    Although improved warning systems have reduced loss of life to 
floods during the past half- century, economic losses have continued to 
rise due to increased urbanization and coastal development.
    The National Flood Insurance Program plays a significant role in 
highlighting credible data and encouraging the use of technology to 
improve mapping of flood risk zones across the country. The general 
purpose of the NFIP is both to offer primary flood insurance to 
properties with significant flood risk, and to reduce flood risk 
through the adoption of floodplain management standards. Generally, 
communities volunteer to participate in the NFIP in order to have 
access to flood insurance, and in return are required to adopt minimum 
standards. Better cooperation among FEMA, FIMA, NFIP, States, and 
locals to increase awareness of risks, urge adoption of standards that 
make structures insurable, and encourage risk reduction strategies that 
leverage critical data would help reduce the impact and cost of future 
floods.
    It is absolutely critical that the NFIP be reauthorized by 
September 30th to ensure continuous coverage for existing policyholders 
and to provide stability for the housing market. While there are 
challenges related to affordability, underutilized or limiting 
policies, and the role of the private market, the program is essential 
to my State and many others across the country. The NFIP can be a force 
multiplier as we communicate risk and is one of the most local 
touchpoints the Federal Government has to move the needle on insured 
risk. The NFIP is not just an insurance program. It is a comprehensive 
flood risk management program. It helps communities make data-driven 
decisions and is essential for action that addresses risk and utilizes 
best-available data and science.
    Two programs which could significantly reduce the cost of all 
disasters, not just flooding, but are underutilized are the Community 
Rating System of the NFIP, and the opportunity for States to earn 33 
percent more post-disaster mitigation funding by having an enhanced 
mitigation plan approved by FEMA. Full participation in these programs 
by States would significantly improve their readiness by helping to put 
into practice well-researched and considered mitigation techniques. 
However, staffing and funding at the State and local level make 
participation in these programs difficult, and the reward is often too 
far removed from the risk to motivate those who choose to enact the 
program. These programs and others like them should be evaluated to 
determine how to improve the participation rates of eligible 
jurisdictions in order to maximize their impacts.
    Storm Surge: Communicating the risks of storm surge is essential 
for coastal communities across the country. A majority of hurricane-
related evacuation is based on storm surge forecasting and has 
undoubtedly saved lives. As the Country's coastal population and 
density continues to grow, the need to improve forecasting and 
messaging capability remains paramount.
    Communicating vulnerability to the everyday American is a 
challenge. ``Nearly three out of five [respondents to a survey on 
perceived vulnerability] have never heard or read an estimate of the 
potential storm surge risk in their area. A significant portion of the 
U.S. coastal population is not fully aware of their storm surge 
vulnerability. (Lazo and Morrow 2013).''
    While we evacuate for storm surge, some are unaware that hurricane 
and tropical storms can also bring damaging freshwater flooding from 
heavy rainfall, which is something we do not necessarily evacuate 
people for during a hurricane event unless they are near a river. 
Freshwater flooding from hurricanes is a secondary hazard, but can be 
just as deadly and damaging as the coastal storm surge. Even if the 
storm is not a hurricane, tropical storms can be a major disaster 
(examples: Tropical Storm Fay 2008 and Tropical Storm Allison in 2001) 
due to the heavy rain threat.
    This was also apparent in Hurricane Matthew in North Carolina. 
While high winds were not expected, heavy rain was anticipated and 
resulted in $1.5 billion in damage to over 100,000 homes. However, 
since people's attention was on the hurricane and where it was heading, 
communicating the high flood risk was a challenge and 28 people died as 
a result. Rainfall- induced flood deaths occur in more tropical 
cyclones than any other hazard.
    In 2014, the National Hurricane Center introduced a new Potential 
Storm Surge Flooding Map to improve the public's awareness of the 
potential impacts for an approaching tropical cyclone. However, due to 
computer processing limits, this map cannot be released until a 
Hurricane Watch is issued. Additionally, once it begins to be issued 
for a storm, updates remain out of sync with other storm related 
products.
       data and the utilization of technology to communicate risk
    As in almost every other profession or discipline, emergency 
management practitioners rely on data and advances in technology to 
address the emerging threats to our communities.
    Forecasting: When it comes to forecasting, we have made major 
strides over the years but continued improvements are necessary. 
Forecasting hurricane intensity is a major contributor to accurately 
predicting storm surge and the improvement in hurricane forecasting 
accuracy means fewer unnecessary evacuations, which saves lives and 
allows us to focus assets where they are most needed.
    There has been modest improvement in this area over the past 20 
years and only recently has shown some improvement due to the efforts 
made by the Hurricane Forecast Improvement Project (HFIP). However, the 
HFIP budget was cut by more than half in 2015. Improvements to 
forecasts depend on how fast research can be made useful to forecasters 
who analyze this information and push data and information essential to 
public communication and informed decisionmaking by emergency 
responders. This budget (Joint Hurricane Testbed) has also been cut in 
half.
    There is no doubt that weather modeling had reduced forecast errors 
and expanded forecast capabilities, but we need to continue this work. 
The potential for massive loss of life due to storm surge persists and 
provides a call to action for the Nation's hurricane research and 
operations program to develop and implement new storm surge mitigation 
strategies.
    Acquiring and retaining IT staff and the infrastructure needed to 
develop new products or make forecast more user friendly to emergency 
managers and the public is essential to continue making advances in 
information gathering and dissemination. Weather modeling needs to be 
on par with European agencies. This will help with lead times for 
emergency managers and the public 4-5 days versus the 48 hours they are 
given now (or even less in some cases).
    Mapping: It is important to have quality maps coming from a 
detailed study with a desire to consistently provide better data, more 
detail, and enhanced information. FEMA risk maps must be updated more 
frequently so critical stakeholders can make decisions about land use, 
shelter locations, and evacuation routes and to smooth out insurance 
premium rate increases.
    Access to the best data would allow communities to determine the 
highest risk areas and help them to mitigate the best way possible. It 
is important to note, especially as the President's skinny budget 
proposes changes to funding FEMA's RiskMAP, that while mapping is done 
in part to support the NFIP, maps are used for many other purposes. 
FEMA (with engagement of NOAA and USGS and stakeholders) should look at 
how such maps are being used and identify opportunities to enhance 
mapping to meet multiple needs.
    In addition to improving currently existing Federal efforts, FEMA 
and others should recognize outstanding efforts done by State and local 
entities and encourage their adoption nationwide. Following Hurricane 
Floyd in 1999, North Carolina established and has funded a statewide 
Floodplain Mapping Program. This program, recognized by FEMA as a 
Cooperating Technical Partner, has to date:

  --Acquired two rounds of statewide LiDAR derived topographic data;
  --Studied over 31,000 stream and coastal miles with Base Flood 
        Elevations established or updated for all studied streams;
  --Facilitated the adoption of the maps by all 100 counties in North 
        Carolina and the Eastern Band of the Cherokee Indian Nation;
  --Transitioned completely away from costly cartographic mapping to an 
        efficient, dynamic database derived display for all data and 
        maps;
  --Assessed flood damage impacts for all structures in North Carolina 
        for five flood events;
  --Established ability to calculate and provide flood insurance 
        premium rates for all structures in North Carolina;
  --Established a real-time flood warning system that calculates real-
        time data to structures; and
  --Established Flood Risk Information System (FRIS) that houses and 
        dynamically displays all flood data, models, maps and risk 
        associated with flood. This system also houses and displays 
        data for Virginia, Alabama and Florida which is highly 
        efficient and a cost savings for each State.

    Modeling: Modeling and communicating the total water hazard is a 
challenge and an opportunity. Modeling the impact of storm surge on 
rivers, combined with the streamflow and water runoff from rain is 
extremely difficult and often requires additional high-resolution data 
to accurately predict an area susceptible to inundation.
    Inundation modeling along rivers is very sparse nationwide, and the 
availability of water-related forecast products are far more advanced 
over the eastern half of the country versus the West Coast. This 
results in a degradation of service for western residents and needs to 
be addressed with a level of standardization that comes from personnel 
and other developmental resources.
         the role of mitigation in reducing threats and hazards
    When discussing any natural disaster, it is hard to argue against 
taking action before the catastrophe occurs, rather than waiting until 
costly damage has affected homes, businesses, and critical 
infrastructure. Over the years, Congress has authorized and 
appropriated significant financial and technical assistance to State 
and local government to pre-empt damages and distress resulting from a 
natural disaster such as flood, hurricane, tornado, or blizzard.
    Mitigation activities can take many forms and the use of mitigation 
programs often differ by region. What does not differ, however, is the 
return on investment of these programs. There have been numerous 
studies over the years that show mitigation saving four dollars for 
every one dollar spent. These averages are conservative and many 
projects achieve much higher return on investment. FEMA's mitigation 
programs have been effective in reducing the property damage, personal 
and commercial hardship, as well as long-lasting monetary burdens after 
a disaster.
    Unfortunately, funding decisions at the Federal level do not match 
with goals of proactively addressing risk. From 2004-2013, FEMA spent 
$71.2 billion in Public Assistance and Individual Assistance to help 
communities recover from disasters, in addition to tens of billions of 
dollars spent by the Departments of Housing and Urban Development and 
Labor, the Federal Highway Administration, the Federal Transit 
Authority, the Small Business Administration, and the Army Corps of 
Engineers. In that same time period, only $5.2 billion was spent on 
Hazard Mitigation Grants (post-disaster) and another $800 million on 
Pre-Disaster Mitigation (PDM) to reduce the impact of future events. 
There can be no doubt that mitigation spending pales in comparison to 
money spent to clean up once the damage is done.
    Mitigation activities should not be accomplished solely with 
Federal funding. The goal is to reduce vulnerabilities and increase 
resilience for the future using all available resources and these 
efforts can be more sustainable when coupled with investments from 
State, local, and Tribal government as well as private sector and 
individual stakeholders. Collaborative mitigation strategies encourage 
relationship building and facilitate innovative funding mechanisms that 
can support the type of long-term, community-driven investments that 
risk reduction efforts require. The efforts by the inter-agency 
Mitigation Framework Leadership Group (MiTFLG) to identify a disaster 
resilience investment strategy and the congressionally established 
National Institute of Building Sciences to develop holistic approaches 
to hazard mitigation incentivization are important initiatives in this 
realm.
    Hazard mitigation is a demonstrably cost-effective effort with a 
documented return on investment. Providing incentives and empowering 
communities, business owners, and government officials at all levels to 
mitigate is a compelling narrative that shifts the focus from Federal 
to community priorities that reflect evolving risk on the ground.
    In order to encourage investment and promote the goals of 
mitigation activities on the State and local level, specific 
recommendations should be considered.

  --Better Coordination Between Federal Agencies with Roles in 
        Mitigation.--No single agency or level of government, sector of 
        business, or individual community can achieve successful 
        mitigation on its own. While a few professional disciplines 
        identify hazard mitigation as a core mission area, the 
        activities of these disciplines alone are not nearly enough to 
        achieve effective investments and policies that protect against 
        the hazards that lead to future disasters. One potential 
        opportunity for a reinvention and reinvigoration of mitigation 
        in built infrastructure could be in the President's much 
        discussed infrastructure plan. If this plan is pursued, I 
        strongly urge the administration and Congress to incorporate 
        principals of mitigation and resilience to ensure these 
        investments can withstand extreme weather and support prepared 
        communities as they weather disasters.
  --Connect Mitigation to Other Programs.--Mitigation objectives for 
        specific projects can differ among individuals, but if the same 
        project supports multiple desired outcomes, success and 
        achievement are increased. Opportunities where a mitigation 
        action actually produces more important non-disaster related 
        benefits should also be sought.
  --Rethink Federal Grant Structure.--The current mitigation structure 
        is centered on the Federal Government and is traditionally 
        reactive, not proactive. Is this the way we want it to be? The 
        Federal Government does not have to be convinced that 
        mitigation is effective because it reduces the obligations of 
        the Federal Government but has, over time, shown an 
        unwillingness to invest anywhere close to as much in pre-
        disaster mitigation as it does in response and recovery costs 
        after a disaster. States understand this, and try very hard to 
        promote mitigation but lack the dollars to incentivize 
        meaningful mitigation adoption on a scale that moves the needle 
        on large-scale risk reduction. The funding that comes from the 
        Federal Government must supplement not supplant the work 
        already being done at the State and local level but Federal 
        funding is a critical incentive and catalyst for action on a 
        mutually beneficial risk reduction strategy.
               working with the national weather service
    As you know, the National Weather Service (NWS)--an agency within 
NOAA--plays a crucial role in providing weather forecasts and warning 
for the United States. As defined in its strategic plan, NWS is working 
towards a ``Weather-Ready Nation.'' This vision has led to a number of 
initiatives such as developing specific practical pilot projects like 
mobile Emergency Response Specialists being embedded in Emergency 
Operations Center and in the field with first responders before, 
during, and after natural disasters. These initiatives have helped 
protect lives by informing people with better information so that they 
can make more knowledgeable decisions. This outlook ties in with that 
of the emergency management community.
    The NWS works hand-in-hand with the emergency management community. 
In fact, a few years ago, the NWS released a study on their operations 
and structure. As part of the review, the National Academy of Public 
Administration and a study team conducted interviews with a range of 
internal and external stakeholders, including NEMA members and 
congressional staff. The commitment to work with the emergency 
management community helps ensure that disaster alert messages are 
disseminated and that the Nation is in an appropriate readiness 
posture. The importance of the National Weather Service's field offices 
cannot be understated. Offices like the National Hurricane Center 
(NHC), the Storm Prediction Center (SPC), and many others provide 
critical data to the States, who then use the information to inform 
their decisions and public messaging to help protect and save lives.
    The NWS has seen great success in its forecasting and warning 
efforts for some hazards, such as hurricanes. There has been a 
significant reduction in weather-related deaths as a result of improved 
warnings. Not only have advancements in notification and warning 
systems saved lives, but they have also reduced the negative weather-
related economic impact to communities.
    In Florida, we deal with the six NWS offices that serve the State, 
and we also house the National Hurricane Center on the grounds of 
Florida International University. Our emergency managers at the State 
and local level are on a first-name basis with those local forecasters, 
and engage with them on a daily basis. During a tropical cyclone event 
in the State, we host twice-daily conference calls between the State, 
all of the counties, the NHC, and the impacted forecast offices to 
ensure that governmental officials responsible for decisionmaking are 
able to hear the latest information directly from those who are 
producing it. It is one of our most fundamental and important 
relationships, and it provides the foundation necessary for us to 
protect the lives and property of our citizens.
                      engaging the private sector
    The private sector obviously plays an important role in providing 
weather forecasts and alerts. A number of private weather companies 
exist, and in many cases they provide excellent services. These 
companies utilize National Weather Service information to meet the 
specific and diverse needs of their clientele. This could include 
helping farmers manage their crops, ensuring that retailers get the 
right merchandise mix to their stores on time, assessing the impact of 
an event so that electrical providers get power restoration crews on 
the scene as quickly as possible, or providing graphics and detailed 
local forecasts to radio and television stations and newspapers so the 
American public is aware of emerging conditions. This is a completely 
appropriate and symbiotic relationship between government and the 
private sector that meets the needs of everyone involved.
    Academia also plays an important part in this process, training the 
meteorologist, climatologists, and other scientists necessary to do all 
of this work. They are also the developers of and home to many of the 
models that serve as the engine to this work. Continued attention must 
be paid to this resource to ensure that it continues to provide the 
work force necessary to accomplish our ambitious agenda.
                               conclusion
    Water-related threats and hazards will continue to be significant 
drivers for action at the State and local level. Emergency managers, 
community leaders, private sector stakeholders, and individuals must be 
equipped with data and empowered by incentives to achieve goals of 
preparedness and resilience. As technology evolves and successful 
coalitions emerge, governments must remain flexible and agile. The 
Federal Government can be a catalyst for action at all levels and their 
investments are critical for sustained and significant investments in 
the future. We must prioritize informed action with the support of high 
quality, quantifiable data before disaster occurs if we are to break 
the cycle of increasing disaster spending following an event.
    I thank you for the opportunity to testify today and welcome any 
questions you may have.

    Senator Shelby. Thank you.
    We will start with you, Dr. Uccellini.
    Doctor, how would our Nation benefit from this proposed 
integrated program, specifically taxpayers who are concerned 
with Government working more effectively, more efficiently?
    Dr. Uccellini. Well, in a number of ways. First of all, our 
interactions with the university communities, through the 
general research community, allows us to leverage ongoing work. 
We essentially are not starting from scratch. We are--and the 
earlier that we work with them during their research phase, the 
faster or the more effective the research to operations can be. 
So we certainly need to capitalize on that.
    We also need to partner more effectively and build on the 
experience that we have had through the weather community with 
the private sector since they are tailoring products and 
services for specific needs and it is more than a force 
multiplier in getting the information out. It really is 
engaging new partners and customers.
    And finally, with respect to the emergency management 
community, they allow us to touch every county. And without, 
you know, the partnership with them, we would not be as 
effective in getting our warnings out in an actionable way, 
that people would actually respond in a way that is envisioned 
in order to save lives and property.
    Senator Shelby. What Federal partners have committed to 
participate in this integrated program and what other Federal 
partners would the department like to see join this effort? It 
seems like the integration effort makes a lot of sense.
    Dr. Uccellini. Well, we have a strong research connection 
with NASA and the university community through the University 
Corporation of Atmospheric Research. With respect to Federal 
agencies, the USGS has certainly been a very strong partner. We 
rely on their research and observations. FEMA is working with 
us, as an example, through the mapping activities that we have 
all pointed to. The U.S. Army Corp of Engineers has been 
working with us and the Bureau of Land Management. I think 
those are the four primary Federal agencies.
    Senator Shelby. Dr. Busalacchi, scientists at your 
organization and those at your partner institutions, I believe, 
rely on research funding from NOAA, NASA, and the National 
Science Foundation to advance the U.S.'s water prediction 
capabilities which lead generally to better weather forecasts. 
Congress has not received the final 2018 budget requests yet, 
but what are your specific thoughts about weather-related 
funding in the administration's initial budget blueprint and 
where do we need to go here from your judgment?
    Dr. Busalacchi. Thank you, Mr. Chairman.
    As was mentioned earlier, over the past year or something, 
we have seen on the order of 15 weather-related disasters of 
about a billion dollars each across the United States, 4 of 
them in 2016. That has doubled the number of water disasters we 
have seen on average since 1980. So forecasting weather has 
economic and national security implications and it is to our 
advantage to weather proof the Nation. It is a matter of being 
more competitive on the global marketplace.
    With that as a background, I am very concerned about the 
proposed baseline budgets for the agencies you just mentioned. 
With respect to NSF, we have not seen the NSF fiscal year 2018 
budget, so I do hope it is better than requests for NOAA and 
NASA because NSF is that seed corn of basic research. It takes 
about 10 years oftentimes for that research to come to 
fruition.
    NSF science, for example, led to fracking. Now, some may 
not like it, but we have seen the economic importance of those 
investments in basic research. And at the outset, we cannot 
necessarily predict where that will lead, but we certainly know 
if we do not have that investment, that means we are going to 
backtrack as a community.
    With respect to NOAA, I am concerned about the potential 
cuts to the funding for the extramural research community for 
the same reasons, but more, I like to think about the 
transition from basic research to applied research to 
application to the support of operations. NOAA is in that sweet 
spot between basic research and the applications. And if we do 
not have that money there in the middle for the applied 
research, it is very hard to make this transition and deliver 
these operational tools.
    And lastly, as Mary Glackin referred to, I am concerned 
about the issues of satellites and how we may best use an 
efficient manner of new approaches to observing and sustaining 
our observations of Planet Earth.
    Senator Shelby. I will get right into that in the next 
question.
    Ms. Glackin, how can we better do this? How can the private 
sector better cooperate with the Government sponsored 
enterprises to achieve the result, which we want to achieve?
    Ms. Glackin. Well, I think the background has really been 
largely laid by my partners here. There is collaboration now 
and I think we need to build it further. So, for example, if I 
were to look in the area of computing, there is advanced 
computing technologies that our community has not taken 
advantage. And there are some real challenges to do that, 
frankly, but we are basically 15 years behind the rest of super 
computer uses. And I think that The Weather Company combined--
--
    Senator Shelby. And we should be on the cutting edge, 
shouldn't we?
    Ms. Glackin. Right. And The Weather Company--when we were 
purchased by IBM, this is one of the large commitments that we 
have been making. So we, internal to the company, are committed 
to doing that, taking advantage of new types of compute 
accelerators, to do that, that I think and provide potentially 
multiple factors of improvement there. And we are very open to 
partnerships and, in fact, in discussions about partnerships to 
advance that.
    Senator Shelby. Mr. Koon, what gap, considering your 
experience here, have you identified in your career as an 
emergency manager between the information collected by our 
Nation's weather enterprise and emergency managers' timely need 
for that information? In other words, you have information, you 
have to get it delivered and it has to be executed on, right?
    Mr. Koon. Yes, sir. Thank you for the question, Mr. 
Chairman.
    I believe one of the gaps that exists still is the lead 
time between when we receive that information and the time we 
need to execute the mission that that data is supporting. So, 
for example, if we have an incoming hurricane or a snow storm 
to other parts of the country, recognizing that those types of 
events may require us to evacuate a portion of the coast or 
move in supplies or allow people to get the kind of supplies 
before the snowfall would shut down commerce in their 
community. Often time, the lead time is not there in a way that 
allows us to accomplish that mission.
    So, we are always working with the weather community to 
help increase that lead time, improve the specificity so that 
we can get those resources exactly to the location where they 
are going to be required. Because we are never going to have 
enough resources to serve a large area, we want to get it right 
down to where it is exactly going to be needed in that 
situation.
    Senator Shelby. That could save a lot of lives and possibly 
save a lot of property damage, could it not?
    Mr. Koon. Yes, sir. It could.
    Senator Shelby. Senator Shaheen, I am going to be gone a 
minute.
    Senator Shaheen. Thank you, Mr. Chairman.
    I want to follow up, Dr. Busalacchi, on your comments, but 
I want to ask Dr. Uccellini--I know, Dr. Uccellini, you cannot 
comment on the fiscal year 2018 budget, but I would like to 
know what the fallout would be at The Weather Service if NOAA 
proposes to eliminate almost every State partnership outside of 
the weather forecast offices and fisheries, including things 
like Sea Grant, the Coastal Zone Management Program, the 
Regional Coastal Resilience Program, the National Estuarine 
Research Reserve System, and even the NOAA Office of Education. 
We have many of those programs in New Hampshire, and they have 
been absolutely critical to how we respond to the oceans and to 
weather.
    So can you talk about what kind of a challenge that would 
present for you?
    Dr. Uccellini. Well, I will just reemphasize the fact that 
we are moving forward based on partnerships and across the 
whole spectrum from the science to the operationalization to 
the utilization of our information in our forecasts where, as 
Bryan Koon emphasized, more and more decisions are being made 
based on a forecast. We need to sustain those partnerships and 
build off them.
    So I would leave it at that, but the fact is as we have 
emphasized and it has been emphasized to us by the National 
Academy of Public Administration, we cannot do this alone. We 
cannot build a weather-ready nation alone. We cannot build a 
water-ready nation alone. So we strive to sustain the 
partnerships and I think our success will be based upon the 
health of the entire enterprise.
    Senator Shaheen. Thank you. Dr. Busalacchi, you talked a 
little bit about what the fallout would be from cuts in those 
areas. Can you talk about how UCAR's ability will be affected 
in terms of contributing to the weather community?
    Dr. Busalacchi. Most definitely. Thank you very much for 
the question.
    First off, I would say that everyone up here at this table, 
central to the work that we are doing is all about protection 
of life, property, supporting economic development and national 
security. I am seriously concerned that we are sacrificing 
leadership in our ability to support all of those four areas. 
It is a partnership up here and if the funds are cut off from 
any one of these players up here, we cannot do the job together 
as an integrated community to deliver those services to the 
community.
    And so the water model is a great success. We delivered it 
on budget 2 years in advance. So it is a great example of 
research to operations, it is also very gratifying for us as 
scientists, but then also the fact that this model is being run 
24/7 being confronted with observations on an hourly basis, 
that is what we call operations to research. It feeds back to 
us. It is actually more interesting when the model fails so we 
can learn from that and improve the following forecast. Again, 
if the funds are not there, we cannot continually improve and 
provide those services to the Nation.
    Senator Shaheen. I very much appreciate that, and thank 
you. You know, I serve on the Armed Services Committee, and I 
remember when we learned about the mission to go after Osama 
Bin Laden. The challenge that they ran into was not really the 
equipment; it was weather forecasting.
    Dr. Busalacchi. Absolutely. We are definitely talking about 
an issue of national security where our military needs to have 
at least a 24-hour edge in its predictive skill over 
adversaries. Again, we need that investment to keep pushing 
that envelope further. So, thank you.
    Senator Shaheen. Thank you. Mr. Koon, last fall the New 
Hampshire Coastal Risk and Hazards Commission released a report 
that found New Hampshire sea levels are expected to rise 
between 6 inches and 2 feet by 2050 and that sea levels could 
rise by as much as 6\1/2\ feet by the year 2100. As we know, 
coastal storms will become more severe because of warming ocean 
temperatures, and our annual rainfall could increase by as much 
as 20 percent in New Hampshire.
    All of the dire predictions that you all talked about are 
going to affect oceanfront properties if we do not know what is 
happening. What are emergency and community managers in coastal 
states doing to prepare for this kind of sea level rise?
    Mr. Koon. Well, thank you, Senator. And coming from a State 
that has a bit more than 18 miles of coastline, we certainly 
are cognizant of the potential of the impacts that seal level 
rise will have on our communities. We see that on day-to-day 
basis in parts of the State now when you have tides that can 
cause flooding in the communities.
    Emergency managers, community leaders rely upon the best 
available data from our partners here at the table and others 
to help us plan for those events. We want to be planning for 
the disasters of tomorrow. We want to build an environment that 
is going to allow us to deal with those situations, so it is 
vital that we have that data, that we recognize that we are not 
dealing with the disasters of yesterday, that tomorrow's 
storms, tomorrow's hurricanes could bring a higher storm surge, 
could bring a stronger flooding potential. And so we want to 
use that, incorporate them into our plans, incorporate them 
into our training, incorporate that into our mitigation 
programs, incorporate that into our building codes so that our 
residents can continue to enjoy the same quality of life that 
they have today.
    And so that is what we are looking for through this process 
is to make sure that we have access to the kind of data such as 
we are getting from the National Weather Center, Water Center, 
NOAA, and others to help us do that and serve our citizens.
    Senator Shaheen. Thank you very much. And I am out of time, 
but, Ms. Glackin, I was interested in your testimony about the 
potential for delivering very specific messages to people 
through cell phones or other ways that we can communicate and 
how to improve on them. Do you see this as a private sector 
opportunity, or is this something that we ought to be 
partnering on? I am struck by every potential weather emergency 
in New Hampshire. I get a message from my utility companies 
saying, ``Prepare for that snowstorm that is coming up, and 
these are the things you can do.'' But it does not provide the 
very specific message that you are talking about. It is a 
generic message.
    Ms. Glackin. Yes. And because it is a generic message, what 
we actually find is people turn them off because they are not 
really serving their purpose. But to answer your direct 
question, it is clearly, we feel very strongly as a company, it 
is an inherent Government responsibility to warn their people 
and we are the delivery mechanism.
    Having said that, we think we need this stronger 
partnership because it is going too slow. Social change, you 
know, how people consume messages today is different from even 
2 years ago, and it is changing rapidly. So unless we really 
embrace that and really think about how people are consuming 
things, as opposed to starting with the warning information 
that you have to convey. We have to come at the problem, we 
think, from the other direction and meet in the middle. We are 
prepared to do that.
    Senator Shaheen. Thank you. I apologize that I have to 
leave to go to another hearing, but I will turn this over to 
Senator Schatz until Senator Shelby returns.
    Senator Schatz. Thank you very much and thank you all for 
your important work.
    I would like to follow up on a question that has been asked 
in multiple forms regarding who does what between public and 
private sector. I just want to get clear on the satellite 
piece. Dr. Uccellini that is the Government's job and that is--
is that the exclusive province of the Government or is it just 
that the Government does that best? What is public policy in 
that space? What is the best practice?
    Dr. Uccellini. Well, in the satellite community, there is 
actually a period of rapid change that is occurring right now. 
We see private sector firms actually launching satellites. 
There are instruments being developed by the research and 
private sector firms, which have flown which we utilize in our 
operational models once we test and assess them. So there is an 
ongoing effort to actually within NOAA to study the efficiency 
and the quality of data that can get through a commercial 
approach. That study is ongoing.
    Senator Schatz. But in the commercial----
    Dr. Uccellini. It is being conducted by NESDIS and 
hopefully we will get the results in by the end of this summer.
    Senator Schatz. But just to be clear, in a commercial 
approach if a private sector launches a satellite, who owns the 
data?
    Dr. Uccellini. Well, there is different levels of sharing 
of data and there is a range of commercial buys. For example, 
even on ground based data or aircraft data, there are 
commercial buys with respect to that data stream and it may or 
may not be applied to this. We are not at that point yet.
    I should emphasize, however, with respect to the 
instruments that are launched today, whether it is 
geostationary or the polar satellites, the quality of that data 
really sets the standard for what we are using not only within 
our models, but using within our warning program. So we are 
using that as a baseline to assess all the other data that is 
coming at us.
    Senator Schatz. Well, and I think that is it. There are two 
important points, at least. One is the quality of the datasets 
coming from NOAA and other Government satellites. Then there is 
this question of a sort of patchwork of who gets to use the 
data and under what circumstances. And if we sort of continue 
with the basic premise that the Government is in the business 
of launching and maintaining satellites, then municipalities, 
then your private sector partners, everybody has equal access 
to the data and to the extent that this is a taxpayer funded 
enterprise, it seems to me that every taxpayer, whether it is a 
municipality or an individual, ought to have access to that 
data.
    And to Senator Shaheen's point about our national security 
interests, we need to make sure that other Government agencies, 
especially on the defense side, have access to that data.
    I want to follow up on another question, Dr. Uccellini. I 
have been following your progress at the National Water Center 
and I am impressed and I have a very straightforward question, 
which is when will the Water Center expand its models to 
include the State of Hawaii?
    Dr. Uccellini. Yes. So we are in the process of expanding 
the expanse of the model to include Hawaii and Alaska. And 
that, it is not only the information that goes into the model, 
but the calibration of the model itself for the unique aspects 
of the Hawaiian islands or Alaska that we are in the process of 
working out as well. And there are plans to be able to 
implement that over the next year or two.
    Senator Schatz. Thank you. Final question for you. I am 
concerned about the NOAA hurricane hunters. As you know, last 
year NOAA had to contract with UCAR to use theirs--thank you 
very much, Dr. Busalacchi--for one of the hurricanes that we 
faced. The data from the hurricane hunters is critical so that 
we can fine tune our forecast track and we need the best tracks 
possible. Some of that may be resolved, we are hopeful, with 
legislation that--just so you know--just passed the House about 
35 minutes ago. But I would like to hear from you how NOAA is 
planning on responding to this assuming the coming legislation 
is enacted.
    Dr. Uccellini. Well, the data from the hurricane hunters, 
as you said, is absolutely essential. We ingest that data in 
real time as part of our effort to improve our track forecast 
through our numerical models. We also use that data as the 
hurricane is approaching the coast for intensity changes and 
the like. So we are certainly working as the user of that data 
and it is as a--and ranked it very high within the priorities 
of the data that we need to do our job. So we of course are 
looking forward to sustaining that kind of data stream for the 
services that we provide.
    Senator Schatz. We will follow up on that and the National 
Water Center and how you are going to be working with Hawaii 
and Alaska in the future.
    Dr. Uccellini. Okay.
    Senator Schatz. Thank you very much.
    Senator Van Hollen. Thank you, Mr. Chairman. It is great to 
be on the subcommittee. Thank all of the witnesses for their 
testimony. Dr. Busalacchi, first of all, thank you for the good 
work you did in Maryland. We are sorry to have lost you to 
Colorado.
    Dr. Busalacchi. Me too.
    Senator Van Hollen. But we appreciate the good work that 
you are doing there. And, Dr. Uccellini, thank you for what you 
are doing at NOAA. Proud to have represented the Congressional 
District that is home to the National Weather Service and the 
Silver Spring Campus and appreciate your testimony. As you 
know, in Maryland along the Atlantic coast just in the Gulf 
areas we experience extreme weather events.
    And Dr. Uccellini mentioned the Ellicott City flooding. We 
have seen storm surges from hurricanes. I attended a hearing in 
Annapolis with a commander of the Naval Academy a little while 
ago, talked about surges in Annapolis and, of course, we have 
dead zones in the Bay. And, Dr. Uccellini, you have talked 
about how these things are interrelated and I know you share 
the alarm many of us have with the new normal of extreme 
weather events. I am not going to put you on the spot as 
someone who works for NOAA right now with this administration. 
It seems to have stricken the words ``climate change'' from 
their vocabulary.
    But Ms. Glackin, I would like to ask you, and thank you for 
your service at NOAA and the Department of Commerce. And I know 
you have spoken about the importance of looking at all these 
weather-related events together and learning from them. You 
know when the OMB Director, one of my former colleagues in the 
House side, Mick Mulvaney rolled out the budget he said and I 
quote, ``We are not spending money on that anymore,'' meaning 
climate science. He said it is, ``A waste of your money.''
    Now that you are in the private sector and no longer having 
to answer for the administration's budget, whether it is a 
Republican budget or a Democratic budget, can you respond to 
that?
    Ms. Glackin. Well, I think I would respond actually from a 
business perspective where I have been working for the past 
couple of years. And, you know, what businesses actually want 
is certainty. They can plan around a number of things if they 
have certainty. So, as I said, as they look at things, we work 
with a lot of people in different spaces--the energy space, 
agriculture--and it is a different answer if you are at a new 
normal or not, so they are looking for certainty around 
information.
    The other thing I want to highlight for this subcommittee 
is we were talking before to Senator Shelby's questions about 
the modeling and improving the modeling. The actual physics 
that is in the Earth's system's model that has been used for 
climate predictions on decadal scales, that tight coupling of 
land surface, ocean, and things is actually exactly what we 
need to improve our precipitation forecasting in the short 
term.
    I mean, the science community, it used to be quite separate 
between whether you were working on seasonal or longer term. 
And, you know, the eureka moment happened several years ago and 
we have been pulling these things together. So if you are 
reducing funding for these Earth system models, you are 
actually reducing funding for more predictability in the sub-
seasonal to seasonal time frame, which is, I think, exactly 
what businesses do not want. They want--there is tremendous 
value in that sub-seasonal to seasonal time frame. Significant 
economic decisions are made there.
    Senator Van Hollen. And I appreciate that. And one of the 
players in this ecosystem that is not at the table right now of 
course is NASA and NOAA depends a lot on their satellites. I 
know the Chairman of the subcommittee also has a deep interest 
in NASA as well. We have talked about that. And NASA, of 
course, has sort of the deep space exploration, which I 
strongly support and my predecessor, Senator Mikulski, was a 
champion of the Hubble Telescope and its follow-on, the James 
Webb Telescope, but also understood the importance of Earth 
science.
    And so, Dr. Uccellini, if you could just discuss what would 
happen to the Earth science efforts and the efforts of 
predicting weather and water systems if we were to get rid of 
the NOAA Earth science Missions, PACE, OCO-3, DSCOVR, and 
CLARREO Pathfinder, which, as I understand it, are all 
important missions, satellite missions, that you use to support 
a lot of your work.
    Dr. Uccellini. Yes. Let me start by saying that part of 
that change that Mary Glackin just talked about, Tony and I 
have been right in the middle of that between NASA and NOAA. 
And today versus 17 years ago, we have about 30 to 40 percent 
of our satellite data that goes through our models is the 
research data from organizations like NASA, especially NASA. 
And what that does is it provides improved information not only 
for the atmosphere, but for the entire Earth system, the land, 
the ocean, and the cries for the ice.
    More importantly, it actually prepares us for the new data 
that is coming from the operational system so we can use it 
quicker within our model, so we do not have to experiment with 
the new operational data. So we have been able to accelerate 
the implementation of our operational--our new operational 
datasets into our models in a matter of months, not years, so 
this is really important. And we are already using the GOES-16 
data while it is still in its engineering checkout phase within 
our operational models and getting it to our forecasters.
    With respect--I will pick one of the satellites you 
mentioned. The DSCOVR is extremely important for our space 
weather program and I think everybody recognizes now the 
importance of space weather for not only economic viability, 
but also for our national security. So that came off of a 
partnership with NASA and it is really important.
    I will just say this with respect to the Earth system 
sciences, whether it is the JPSS or the Suomi NPP satellites, 
we would not be where we are in terms of the use of that kind 
of satellite data if it wasn't for our use of the ERS and MODIS 
and other experimental satellites that NOAA launched that was 
directed back towards the Earth. So that partnership is really 
important for us in many ways.
    Senator Shelby. What is preventing the National Weather 
Service from filling the vacuum of NOAA positions at the 
National Water Center? What is the hold up? Is it just a 
question of working through it or what?
    Dr. Uccellini. Yes. Well, we have actually been----
    Senator Shelby. With the right people too.
    Dr. Uccellini. Yes. Yes. And, in fact, there are over 60 
people that work in the Center now, but it is not where we want 
to be with respect to the full complement that was envisioned 
several years ago.
    Senator Shelby. We have fully funded it, as you know.
    Dr. Uccellini. What?
    Senator Shelby. We have fully funded it.
    Dr. Uccellini. We have worked with the funding that we have 
had in terms of the positions coming in, and of course, we have 
had plans to continue that implementation. I will just say that 
we have worked through the current freeze on hiring.
    Senator Shelby. Yes, I know.
    Dr. Uccellini. And we have secured an exemption for the key 
positions that are directed towards the public safety aspect, 
so we are working through issues to continue the hiring process 
within the Water Center. And it is especially important to us 
because we do need to build up the capacity of the operational 
component.
    Senator Shelby. What is your outside timeline on this? When 
do you think it will be fully staffed roughly?
    Dr. Uccellini. What we are working towards is within 
several years.
    Senator Shelby. It will take that long?
    Dr. Uccellini. Yes.
    Senator Shelby. Okay. Why does it take that long?
    Dr. Uccellini. We----
    Senator Shelby. Because you are careful on what you are 
doing there.
    Dr. Uccellini. Yes. I have to be very careful----
    Senator Shelby. I like that.
    Dr. Uccellini [continuing]. In this aspect of it, but 
clearly we work and we operate depending on the appropriation 
and the appropriation language.
    Senator Shelby. Mr. Koon, you have had a lot of experience 
in this area. There is several Federal agencies involved, as 
you know, in the collection of data and the creation of flood 
maps. I have long been concerned about possible duplication and 
that these agencies probably do not collaborate appropriately 
enough. It seems that the lack of coordination and integration 
of data seems, you know, it is less available there. Can we do 
better there and how do we do it?
    Mr. Koon. Chairman, the answer is, yes, we can do better. I 
believe that use of our maps today does not support the needs 
that we have in the community. The maps are not updated 
frequently enough. They are not granular enough.
    Senator Shelby. Are they accurate?
    Mr. Koon. They are accurate when they are produced, but 
oftentimes 5, 10, 15 years later, they are no longer accurate. 
They do not keep pace with the changes in the built 
environment. They are sometimes difficult to decipher. They do 
not make a compelling case and provide the types of data that 
individuals, businesses, citizens are looking for when they 
make land use decisions, when they make insurance purchase 
decisions.
    Senator Shelby. What prevents the Federal Government 
various agencies from sharing mapping products today? Are there 
some impediments there? Is it just territory or what is it?
    Mr. Koon. You know, Senator, I do not have any specifics as 
to why they are not--what would be the impediments to them 
sharing that information. I certainly think the opportunity 
exists. One of the things that I have been reviewing recently 
is FEMA put together at your behest a Technical Mapping 
Advisory Committee to help the National Flood Insurance Program 
improve its mapping processes and techniques.
    One of the things that they recommend is to do structure 
specific flood maps. So instead of showing you an entire zone 
that is going to flood, show you what is going to happen to 
that individual structure, that individual building. That is 
the kind of work that we are doing at the National Water 
Center. So those two entities, The Weather Service and FEMA, 
need to continue to work together.
    Senator Shelby. Well, don't we have a lot more data because 
of satellites and everything and imaging than we used to have?
    Mr. Koon. Yes, sir, we do. There is better LIDAR data 
today. It is much more granular than it ever has been before. 
That is the kind of information we need to help people make the 
appropriate decisions about how are they going to use that land 
and how they are going to insure their property.
    Senator Shelby. So what is the big first step here?
    Mr. Koon. Well, I believe it is--one is, again, take a look 
at the recommendations of that Technical Mapping Advisory 
Committee. Make sure we are utilizing all of the available 
resources from the Federal agencies that support this mission. 
Recognize that the value that these maps and this information 
play in the economic decisions that Americans are making. So we 
need to understand how they are utilizing these maps and how 
they can better utilize these maps and then apply all the data 
from all the different resources there to help get them the 
product that they need in a way that best supports their 
decisionmaking process.
    Senator Shelby. Doctor, going back to your--my question 
earlier, what kind of money are we going to need? I thought we 
had adequate money because adequate is a weak word sometime and 
that we had money to staff the Water Center and so forth, but 
if we do not, we need to get it. And this is a subcommittee 
that deals with that.
    Dr. Uccellini. That is correct. And we are at the beginning 
of the budget process and I have to worked through that process 
to be able to get that to you.
    Senator Shelby. Yes. I hope you will work with my staff and 
Senator Shaheen and I will try to lead that effort to make sure 
your--I think it is a good investment, don't you?
    Dr. Uccellini. Well, as I said in the testimony, that the 
National Water Center has certainly acted as a catalyst, a true 
catalyst, for accelerating the advances in the water prediction 
arena and the services that are being provided, including the 
mapping that just was talked about.
    Senator Shelby. Okay.
    Dr. Uccellini. So it is certainly an advancement that we 
are all excited about.
    Senator Shelby. Well, we will try to do our share of the 
work up here. You do your share already.

                     ADDITIONAL COMMITTEE QUESTIONS

    I appreciate all of you coming here today. We have a--we 
are building a record on this, as you know, for appropriations. 
If there are no further questions, I want to thank you again 
for your time this afternoon. And we have some Senators in 
other hearings that asked--they wanted to submit questions for 
the record to you and we will leave that open for 30 days.
    [The following questions were not asked at the hearing, but 
were submitted to the Departments for response subsequent to 
the hearing:]
             Questions Submitted to Dr. Antonio Busalacchi
            Questions Submitted by Senator Richard C. Shelby
    Question. What is your assessment of the current computational 
resources supporting water modeling and are there areas for 
improvement? Also, are there any interagency obstacles that need to be 
addressed?
    Answer. The present situation of computational resources for both 
research and operations for water modeling is woefully insufficient. 
NOAA will need significantly more computational resources to run 
operational hydrologic models going forward as the resolution of the 
models is only going to increase with time. The imperative to provide 
risk-based, probabilistic water forecasts for the Nation are only 
accelerating already rapidly increasing computational demand. And in 
parallel, we must make sure that the research community has adequate 
computational capabilities so we can advance the science that will feed 
future operational models. This ``synergistic cycle of computation'' is 
critical if we are to realize the full benefits of the model in saving 
lives. The NCAR Wyoming Super Computing Center (NWSC) is in fact built 
so that it can be expanded to house additional computing resources. 
Given the pace at which we upgrade computing capabilities, any facility 
that support hydrologic models should be built with concept in mind.
    In terms of interagency obstacles, the National Water Model 
emanated from NCAR and our university partners. NOAA should not stand 
up a duplicative internal research capability in this area but needs to 
work with NCAR, other agencies and the university community to 
establish requirements for the program going forward. This demonstrates 
the value of community models to rapidly enhance the capability of a 
model to hasten research to operations opportunities. As NCAR is a NSF 
funded FFRDC, we need to determine how to set up a process that 
leverages NSF funded basic research into operational applications 
inclusive of the computing time needed for research. This research to 
operations process right now between NOAA and NSF is not a planned 
activity but rather one of timely opportunity. Given tight Federal 
budgets, it is imperative that we find a way to leverage best of class 
science into operations for the benefit of the taxpayer and community 
models are a proven vehicle to allow best of class science to rise 
quickly into operations as demonstrated by the National Water Model 
process Moreover, as a Nation we need much stronger interagency 
planning to prepare for exascale computing.
    Question. What are major scientific and technical challenges for 
accurate water prediction, and what obstacles must we overcome to 
achieve accurate water prediction?
    Answer. The major science and technology challenges are the need 
for more observations which feed the models, the development of the 
next generation of models, and advanced data assimilation methods that 
bring the observations into the models and better computational 
resources that in turn produce higher resolution products for end 
users. Improved methods to regionally and locally calibrate hydrology 
models and a real-time indication of the past performance of the water 
model for the entire domain are also areas where investment would yield 
more accurate predictions. A 10 year strategic plan for more accurate 
water predictions with a programmatic roadmap would help to coalesce 
the community around a plan with requirements.
    The implementation process for transitioning new model innovations 
and improvements is currently too slow and has been increasing over 
time. It is critical that new observations, data assimilation 
methodologies and model formulations be transitioned into operational 
forecast systems as soon as they exhibit definitive proof of benefit. 
Therefore, the concept of an operational, computational test bed for 
rapid onboarding of environmental prediction systems must be vigorously 
pursued. Research and technology move at an incredibly fast pace and it 
is critical to society that we are constantly utilizing our research 
investments in the most efficient and pro-active manner.
    Question. How do we coordinate water-related activities among 
different agencies and stakeholders? What mechanism (process) is 
available now? What, if anything needs to be established?
    Answer. The closest coordinating mechanism right now is the Office 
of the Federal Coordinator for Meteorology (OFCM). But water is more 
than just meteorology. An inter-agency Water and Related Agencies 
Program (WRAP) office needs to be established along the lines of the 
U.S. Global Change Research Program (USGCRP). Such an office must 
reside in the White House and include all departments and agencies 
involved in the research, prediction, and operational capabilities that 
support our water priorities as a Nation and be integrated with 
organizations like the National Security Council (NSC) and the Domestic 
Policy Council (DPC) so the highest level of policy makers have access 
to water resource data. The IWRSS consortium has begun to address key 
gaps in water information exchange but many more issues remain to be 
addressed, particularly with respect to the development and utilization 
of new, non-traditional observations. Additionally, other water 
relevant agencies, such as the Bureau of Reclamation, the Natural 
Resources Conservation Service, and the U.S. Forest Service need to be 
constructively brought into IWRSS.
    Question. In your opinion, does the Water Center have adequate 
Human Resources necessary to achieve its missions?
    Answer. This question is difficult to answer as a research entity, 
however, it is essential that that the NWC have the right blend of 
operational users from agriculture, energy and other water dependent 
sectors and that they have adequate knowledge of the science behind the 
operations.
    First and foremost the NWC needs to serve as the operational nerve 
center for water hazards and water resources monitoring and prediction. 
This means that the Human Resources at the NWC need to be oriented 
towards data integration, quality-control and stewardship, and in 
forecast product and service development and delivery. This core 
competency of the NWC will insure that no critical piece of water 
information is left out of the forecast and public information process. 
While scientific expertise is needed to optimally unify and streamline 
the research to operations pipeline, the expertise in water-related 
research and prediction system development is much vaster than the NWC 
and the NWC should not attempt to replicate that internally. 
Replicating that expertise would be an inefficient use of critical 
resources and also would dilute the resources available to the NWC to 
serve as the monitoring and prediction hub described above. Instead the 
NWC needs to improve the mechanisms by which such external expertise is 
engaged in forecast system development and also to provide strong 
support for those groups to engage in the research-to-operations 
process.
    Furthermore, as the NWC is an operational center, staff must be 
aligned with not only their own sectors but with those that are 
complimentary. For example, hydropower operators and fish managers 
should be able to see a large precipitation event and plan for it in 
terms of not only adequate power to citizens but sufficient water flows 
for fish. This is a new area where our predictability leads to new and 
novel ways to manage environmental concerns to the benefit of all 
parties involved. As these new areas emerge, NWC needs to be able to 
identify and retain appropriate staff with the skill sets for these new 
areas. And it is critically important that the NWC has a strong 
contingent of scientists, just like other prediction centers at NOAA 
with specific expertise tied to the NWC mission.
    Question. How do we attract the best talent (experts, scientists, 
engineers) to work at the Water Center?
    Answer. The best way to attract the best talent is to ensure that 
staff at the Water Center has access to the best tools, talent and 
technologies to do their jobs as well as to ensure they are trained 
appropriately given the life-saving nature of their work. As new 
forecast techniques evolve, it is also essential to make sure that 
training is part of the employees' regimen so their skill set is as 
fresh as possible and have access to the latest research that is being 
driven into operations. Technology and training when coupled with 
working with the best in the field will make others seek employment at 
the National Water Center. It will also be critical to insure that the 
NWC have a number of open and collaborative engagement mechanisms so 
that expertise from the Nation and the world can actively engage and 
collaboration with NWC staff. This cycle of excellence and the ability 
to be part of a high performing team will motivate people to work at 
the Water Center.
    Having been a NASA civil servant for 18 years, the last 10 of which 
as a member of the Senior Executive Service, in general I am deeply 
troubled by the ability of any government agency today to recruit and 
retain the best of the best. Back in 1982 when I joined NASA, one could 
spend their entire career in service to the Federal Government. 
However, today criticism of civil servants coupled with more 
competitive salaries in universities and the private sector are 
preventing the government from hiring and keeping the Nation's top 
scientific and engineering talent.
    I should also add that a large fraction of the non-civil servants 
that work at the NWC are hired by UCAR's Community Programs (UCP). We 
are able to provide a high quality work force by providing competitive 
salaries and drawing on the talent base of our 110 member university 
consortium. In this regard, we have been in contact Dr. Carl Pinkert, 
the Vice President of Research University of Alabama. As a result the 
university has applied recently for membership in UCAR in order to 
further strengthen the education and training of students in the STEM 
disciplines at the University of Alabama and thereby provide a future 
pipeline of talent for the NWC.
    Question. What products do you see the Water Center making 
available to the public at large?
    Answer. The NWC should make all of its base data available so that 
entrepreneurs both in the public and private sectors can extract that 
data and use it to build new products. Thus, NWC is a ``water 
incubator'' that can help to generate new businesses in Alabama and 
around the country.
    The NWC needs to take advantage of existing web data display and 
web mapping services that have a technical maturity level far beyond 
what NOAA has produced so far. There are numerous proprietary and open-
source tools that already exist in mature forms that permit the rapid 
display, evaluation and dissemination of environmental monitoring and 
prediction information. These systems have capabilities well beyond 
those currently provided by NOAA and are built by experts in systems 
and software engineering who have capacity far beyond what NOAA and the 
NWC will be able to attract. These people come from the technological 
hubs of the world such as Silicon Valley, Seattle, Boston, Boulder and 
the like. The mature tools and techniques they have developed can be 
rapidly transitioned into the NWC's operations and do not require a 
major new development capability within the NWC for the NWC to 
capitalize on them. There needs to be a strong effort to resist the 
`not invented here' tendency so that more robust forecast development, 
display and dissemination tools can be utilized as fast and as 
efficiently as possible.
    The technologies mentioned above would help enable a much desired 
visualization of street level hydrology that can now be enabled with 
the national water model at the NWC. In the not too distant future, the 
weather person on TV will be able to show a water forecast of what will 
happen at the neighborhood level and protect lives from severe events.
    Question. In your opinion, how can the public better benefit from 
the work conducted by the Water Center?
    Answer. The NWC can better benefit the public by serving as a 
translator of the science and its resulting products from the NWC. The 
NWC must define these products for the public and explain how they can 
be used to protect lives as well as how to make better decisions in 
regards to economic activities. Specifically, the NWC needs to more 
adeptly utilize and integrate existing technologies, such as web 
mapping display services described above so that the public as access 
to the latest technology web and wireless communication services. 
Additionally, the NWC needs to work with the U.S. Water Partnership and 
State and local organizations to better understand user needs, so that 
NWC products have ready and enthusiastic users.
    Question. What education and outreach activities do you see the 
Water Center currently conducting? Do you have ideas about how these 
could be expanded?
    Answer. First and foremost, the Water Center should play a leading 
role in educating citizens about the dangers of flooding and what steps 
they can take to protect themselves and their loved ones. NOAA has 
programs like StormReady (http://www.weather.gov/stormready/) as part 
of its Weather Ready Nation initiative and needs to take expertise from 
the Water Center and use it to inform the National Weather Service's 
outreach capability. Along these lines a whole new area of hydrologic 
impacts services needs to be developed to properly interpret and 
communicate to the public the large volume of information coming out of 
the National Water Model. Right now, only a small fraction of those 
model results are making it into official forecast products and 
services. Assessment and utilization of those results needs to be 
accelerated.
    Also public campaigns to raise awareness need to be developed. 
Several years ago NOAA had a ``Turn Around, Don't Drown'' campaign 
aimed at young drivers who often attempt to cross swollen rivers or 
streams in cars. The goal of course was to educate and reduce this 
risky behavior. Public service announcements and online social media 
campaigns driven by Water Center information can help to inform 
citizens about what actions to take and how to recognize the signs of 
danger in a major precipitation event.
    Finally, NWC, like other NOAA centers, can be the site of hands-on 
learning opportunities for undergraduate and graduate students through 
robust internship programs. This will enable the next generation of 
scientists and engineers and ensure that the current workforce is up to 
speed with the latest techniques and knowledge.
    Question. Your oral and written testimony suggests that effective 
research to operations needs to be conducted with all three of the 
sectors--private, government, and academia. Do you think each one is 
well equipped to work productively with the other? For things like the 
national water model, should the government be the lead? If so, does it 
have the capacity to lead?
    Answer. Research to operations does need to be conducted in all 
three sectors with the realization that the requirements of their 
respective customers are different. The National Weather Service has to 
focus on the high-impact weather event that can affect citizens 
anywhere and at any time while the private sector company has a more 
narrow and focused product that is built on user needs that are paid 
for by another business. Academia is in a unique position to translate 
cutting-edge research into both sectors.
    The three sectors are well equipped to work with each other. There 
are some disputes over intellectual property rights and there have been 
conflicts in the past for example over who owns a model technique but 
they have always worked themselves out. With the rise of the private 
sector we will face policy challenges in regards to the roles. For 
example, should the government get out of routine forecasting and leave 
that domain to the private sector while focusing on the anomalous high-
impact event? These policies could very well drive the enterprise in a 
new direction as weather becomes hyper local with the advent and 
incorporation of new data from non-traditional weather sources on hand-
held devices.
    Finally, the government should be the lead for the national weather 
and water models in an operational context. The government should set 
requirements and then rely on the research and private sector 
communities to find novel and innovative ways to address those 
requirements. It is crucial that scientific and technological 
leadership should be shared so that the most innovative capabilities of 
each sector can be brought to bear on issues as they arise. And 
universities need to strengthen technology transfer activities so that 
we can have more research to industry pathways that build additional 
opportunities for both the public and private sector.
    Question. Can you please illuminate the role of basic research in 
getting us to applications like the national water model?
    Answer. As I noted in my testimony, the initial Weather Research 
Forecast Model (WRF) has been around for nearly two decades and many 
scientists have made this community model, better over time in terms of 
its parameters and coding. This was initially a basic research model 
funded by the National Science Foundation. The WRF-Hydro modeling 
system, which serves as the underlying modeling framework for the 
National Water Model, has followed a similar developmental pathway and 
is now used by hundreds of investigators around the world. It is also 
used as an operational water prediction system in other countries. 
However, the continued improvement and innovation of the modeling 
system relies heavily on open access to its code so that investigators 
conducting basic research into hydrometeorological processes can 
address shortcomings and develop new prediction capabilities. The 
infusion of basic research into hydrometeorology becomes critical in 
this effort. This fact is particularly true as the need to improve the 
methods for hydrologic data assimilation persists.
    More generally, over time many researchers realized that there was 
operational need for their ``science'' model to go into operations. The 
community has meetings and conferences to determine the best pathways 
for future use and deployment of research into operations and hence, 
NOAA decided they needed to better forecast large precipitation events 
and try to minimize their impact. Thus they turned to the research 
community seeking help to build the next model and in fact turned to 
UCAR/NCAR to assess how best to tackle which model was needed.
    Question. How can the private sector be more supportive of 
scientists? How can scientists funded by the Federal Government be 
better at working with the private sector and pushing their research 
into the private sector?
    Answer. The private sector is supportive of scientists and in fact 
Baron's Weather Services, an Alabama based company, has taken a version 
of the National Water Model and the NWC and is deploying it in Romania 
and Israel. This illustrates how research can move not only into 
government operations but also into industry or R2I (Research to 
Industry).
    The private sector is the fastest growing sector of the weather 
enterprise due to the use of data and weather analytics which can now 
be incorporated into business models in real time. However, the private 
sector has a role that tailors unique forecasts that users want whereas 
their Federal counterparts focus on predicting the high-impact 
anomalous weather event such as the tornado outbreak in Alabama a few 
years ago.
    One personnel approach that would helpful to bridge government 
scientists with the private sector is to employ the use of 
Intergovernmental Personnel Agreements (IPAs) more so that Federal 
scientists could get a flavor for how the private sector works and 
would then be better able to understand how some Federal research could 
then be driven into operations in both the private and public sectors.
    Finally, restructuring financial incentives for Federal scientists 
would have an impact on driving innovation at Federal facilities into 
the private sector. Caution needs to be exercised as we want Federal 
scientists to focus on the mission s of their respective agencies but 
where it can accrue a value to the private sector we need to make sure 
that the Federal scientists and the taxpayer are compensated for their 
innovation.
                                 ______
                                 
             Question Submitted by Senator Dianne Feinstein
                  extreme weather patterns and events
    Question. Dr. Uccellini, NOAA recently reported that between 
January and March of this year, the United States suffered $5 billion 
worth of weather-related disasters, a record start to the year. It 
appears to me that climate change is creating more severe and 
unpredictable weather patterns, and the U.S. Government must begin 
working to improve our forecasting ability to help protect American 
lives and infrastructure. For example, California has experienced not 
only severe drought over the last several years, but also extreme 
flooding in recent months.
    Dr. Uccellini and Dr. Busalacchi, how can collaboration between the 
Federal Government and universities be improved so that the data used 
and disseminated by the Federal Government reflects the expertise of 
academic researchers across the country?
    Answer. There are two principle issues that require consideration 
in this question: data availability and data quality. While data 
availability has improved significantly over the past decade through 
the development and use of web services and through the establishment 
of data format and exchange standards, significant work remains to 
further unify utilize environmental data standards. These issues are 
often challenging for single investigators or smaller non-Federal 
agencies and result in a lot of valuable research and monitoring data 
to be under-utilized in operations. Improvements in data processing and 
exchange tools, driven by Federal requirements, will help ensure that 
important observations of environmental conditions (e.g. flood 
inundation, water quality, etc.) do not go under-utilized. Conversely, 
many of the existing Federal observing networks still utilize 
instrumentation and methodologies that are becoming out of date with 
respect to the state of the art. Mechanisms for driving more frequent 
review and upgrade of environmental monitoring systems, such as stream 
flow measurements, need to be pursued vigorously. With the rapid 
advance of lightweight unmanned aerial instrument platforms (e.g. 
drones) and other remote sensing platforms (e.g. small scale radars, 
lidar systems, imaging spectrometers, etc) there is an explosion in 
environmental monitoring capabilities yet few of these observations are 
currently be used in operational predictions. Mechanisms for rapidly 
quality controlling and infusing these new measurements into 
operational prediction systems, such as the WRF-Hydro/National Water 
Model need to be pursued vigorously.
    Additionally, I'd be remiss if I did not point out that many NCAR 
projects are directly funded to create applied research results that 
can make it into operations rapidly be design. Give our 110 university 
members of UCAR, if it does not exist within NCAR, we can find the 
appropriate research university and engage them as well to get as fast 
a capability as possible. This need for extra-mural research and the 
need for a true two-way R2O and O2R partnership with NOAA is a critical 
capability that needs to be developed and maintained.
                                 ______
                                 
                   Questions Submitted to Bryan Koon
               Question Submitted by Senator John Boozman
    Question. Mr. Koon, last year FEMA spent $621 million from its 
Disaster Relief Fund to fund the Hazard Mitigation Grant Program. While 
these are worthy investments, it seems a bit backward to me as we 
mainly end-up funding mitigation projects only after a disaster occurs. 
What can Congress, FEMA, and your peers do to incentivize more robust 
mitigation on the front end so that we can work to reduce the overall 
cost of disasters to American taxpayers?
    Answer. In order to reduce the overall cost of disasters to the 
Nation, we must do two things:

    1.  Greatly increase the proportion of governmental funding (at all 
levels) that is dedicated to mitigation by changing the formulas, tying 
recovery dollars to aggressive mitigation, and further incentivizing 
those programs designed to spur mitigation activities, and
    2.  Recognize that disaster funding provided by the Disaster Relief 
Fund will never be enough to accomplish meaningful risk reduction, and 
make mitigating against future disaster a part of every governmental 
program.

    States currently receive 15 percent of the overall cost of a 
Presidentially Declared Major Disaster (with a potential for 20 percent 
if they develop an Enhanced Mitigation Plan) to help harden their 
infrastructure against future disasters. While this funding is 
certainly useful and also ensures State and local participation through 
cost sharing, it will never be enough to harden all of the 
infrastructure necessary to make a significant impact to overall 
disaster costs. Only by changing the funding available to mitigation so 
that it is commensurate to what is spent on recovery will we begin to 
approach the appropriate funding level.
    Congress should consider ways to reward States who implement 
aggressive and meaningful mitigation efforts. Rewarding States who have 
enhanced mitigation programs is a good first step, but the incremental 
funding increase and the relative low participation rate (12 of the 50 
States) is not enough to make a meaningful difference. Perhaps a 
sliding scale of recovery funding based upon mitigation efforts would 
result in greater focus on the issue. Such a mechanism was detailed in 
FEMA's recent SANPR regarding a disaster deductible. Regardless of 
whether FEMA moves forward with the rule, additional research into the 
potential outcomes of greater incentivization programs should be 
conducted.
    To truly reduce the cost of disasters, however, government must 
leverage every program towards that objective. That means putting 
disaster-related funding currently disbursed from other agencies into 
FEMA's control, and ensuring that any infrastructure projects 
undertaken with Federal funding be constructed in a way that will 
maximize their resilience to future disasters. Over time, these efforts 
will ensure that the Nation's physical infrastructure is prepared to 
save lives and recover more quickly from the hazards that impact it.
                                 ______
                                 
            Questions Submitted by Senator Dianne Feinstein
                  extreme weather patterns and events
    Question. NOAA recently reported that between January and March of 
this year, the United States suffered $5 billion worth of weather-
related disasters, a record start to the year. It appears to me that 
climate change is creating more severe and unpredictable weather 
patterns, and the U.S. Government must begin working to improve our 
forecasting ability to help protect American lives and infrastructure. 
For example, California has experienced not only severe drought over 
the last several years, but also extreme flooding in recent months.
    Mr. Koon, what specific actions should be undertaken at the Federal 
level, both by the Executive Branch and by Congress, to achieve the 
greatest reduction in risk associated with extreme weather events?
    Answer. As noted in the question, continual improvement in our 
ability to forecast severe weather and other events is key to enabling 
Americans to save lives and property during a disaster, and NEMA fully 
supports Federal efforts to improve those capabilities nationwide.
    It is not enough, however, to simply improve our ability to 
forecast severe weather on a short-term basis. We must continually 
focus on those models which allow us to look years into the future so 
that we can make the appropriate land-use plans and fund and insure 
them appropriately. Improving data in this area will allow stakeholders 
to more confidently invest in infrastructure and create a built 
environment that is resilient to changing hazards, thus reducing the 
future cost of disasters.
    We must also make better use of the funds that are currently 
dedicated to disasters. Our current structure is fragmented between 
multiple agencies, which reduces oversight and does not allow 
government to work towards a common goal of disaster cost reduction. 
Combining these funds under FEMA's oversight would allow the Nation to 
improve its focus and make meaningful progress. It would also provide 
the opportunity to allocate more of those funds towards mitigation 
activities which would further reduce future disaster costs.
                          harmful algal blooms
    Question. Harmful algal blooms are a nationwide problem for both 
marine and fresh water bodies. Research has pointed to rapidly changing 
weather and temperature patterns as a major factor in the recent 
increase in harmful algal bloom issues, including off the coast of 
California as well as in its drinking water reservoirs. Just last year, 
a harmful algal bloom devastated the Dungeness crab fishery off the 
coast of California, forcing its closure and upending related jobs, 
livelihoods and communities.
    Mr. Koon, what steps should be taken to ensure that any predictive 
capabilities the Federal Government develops related to harmful algal 
blooms can be incorporated into education and notification efforts for 
local communities that face a public health risk from these blooms?
    Answer. State and local government already maintain numerous 
networks for ensuring that pertinent information is shared quickly and 
accurately to all appropriate stakeholders. The Federal Government 
would be wise to study how the National Weather Service shares 
information across the country, from long-range seasonal forecasts to 
immediate warnings about tornadoes. They have spent decades working 
with partners to understand their needs and develop their products 
around those needs. State and local governments would certainly welcome 
the opportunity to engage their community stakeholders in a 
conversation with the Federal Government to design a system of 
information sharing that met each of their individual needs and 
maximized the value of those predictive capabilities.
    My experience in Florida on specific algae issues is limited but 
through the National Emergency Management Association (NEMA), I 
consulted with my colleague in California (At CalOES) and he provided a 
comprehensive response.
    Harmful Algal Blooms (HABs) occur in warm, nutrient-rich, surface 
waters (salt and freshwater) and cause toxins in drinking water that 
are dangerous for humans, fatal to pets, absorbed into fish and other 
shellfish that are eaten by humans and other predators, and greatly 
impact recreational and commercial fishing. In California it has cost 
$30 million dollars in fishery closures (``Framing the Science Around 
Harmful Algal Blooms and California Fisheries: Scientific Insights, 
Recommendations and Guidance for California,'' 2016), and is likely to 
be a worsening threat due to climate change and nutrient loading.
                      best practices in california
  --Drought response and mitigation protocols ensured effective algae 
        mitigation and response, and therefore have been identified as 
        the best practices, such as:
  --Using the Standardized Emergency Management System
  --Reviewing all programs and grants that may have a role in response/
        mitigation
  --An Executive Order from the Governor establishing a Drought Task 
        Force, which directed Cal OES staff to bring technical experts 
        and funding solutions to problems that arose, such as algae 
        impacting drinking water, to ensure drinking water availability
  --A Declaration of Emergency for the drought
  --Regular and detailed situation reports to determine how best to 
        approach each problem as it arises
  --Empowerment, strong leadership practices, and open communication 
        with those on the ground
            cal oes recommendations for harmful algae blooms
  --Local public health agencies and State Drinking Water Program could 
        create new messaging campaigns to reduce fears, such as 
        unrelated health concerns
  --State and Federal Government and Tribal nations may need to share 
        and gather data from policy makers and scientists in order to 
        avoid preventable disasters for water-dependent wildlife due to 
        HABs
  --Potential HAB mitigation may include stronger and innovative water 
        treatment solutions (such as new chemical solutions that make 
        the algae sink and coagulate faster) and funding to update 
        infrastructure
  --It is also essential to prohibit fishing in areas affected by HABs 
        and selling fish that is unsafe for human consumption; mandate 
        water conservation
  --California Department of Fish and Wildlife and National Oceanic and 
        Atmospheric Administration's National Marine Fisheries Service 
        (NMFS) information on the 2015-2016 fisheries closures 
        supported a Governor's request for disaster relief funding
    --United States Secretary of Commerce determined that the event 
            meets requirements for a commercial fishery failure due to 
            a fishery resource disaster which provides a basis for 
            Congress to appropriate disaster relief funding under the 
            MSA, Section 312(a) (Commerce Secretary Pritzker declares 
            fisheries disasters for nine West Coast species, 2017)

                          SUBCOMMITTEE RECESS

    And subject to that, the Chair will recess the subcommittee 
subject to the call of the Chair. Thank you very much.
    [Whereupon, at 3:41 p.m., Tuesday, April 4, the 
subcommittee was recessed, to reconvene subject to the call of 
the Chair.]
</pre></body></html>
